Follow Us |
      http://oig.ssa.gov




       SSA Pub. No. 85-007
                              Semiannual Report to Congress
                             April 1, 2012 - September 30, 2012
                                                                                              How to Report Fraud

                                                                     The SSA OIG Fraud Hotline offers a means for you to provide
                                                                     information on suspected fraud, waste, and abuse. If you know of
                                                                     current or potentially illegal or improper activities involving SSA
                        Mission Statement                            programs or personnel, we encourage you to contact the SSA OIG
By conducting independent and objective audits, evaluations, and     Fraud Hotline.
investigations, we inspire public confidence in the integrity and
security of SSA’s programs and operations and protect them against
fraud, waste, and abuse. We provide timely, useful, and reliable     Call	 ....................		1-800-269-0271
information and advice to Administration officials, Congress, and    Write ...................	     Social Security Administration
the public.                                                          	      	         	         	   Office of the Inspector General
                                                                     				Attention: SSA Fraud Hotline
                          Vision and Values                          				P.O. Box 17768
We strive for continual improvement in SSA’s programs, operations,   				Baltimore, MD 21235
and management by proactively seeking new ways to prevent            Fax ........................ 	 410-597-0118
and deter fraud, waste, and abuse. We commit to integrity and
excellence by supporting an environment that provides a valuable     Online .................	 http://oig.ssa.gov
public service while encouraging employee development and
retention and fostering diversity and innovation.                                  To obtain additional copies of this report,
                                                                                           please visit our website at
                                                                                               http://oig.ssa.gov

                                                                                                  SSA Pub. No. 85-007
         A MESSAGE FROM THE INSPECTOR  GENERAL
                                    Semiannual Report to Congress




  Across the Federal Government, offices of inspectors general
  act in the best interests of the agencies they oversee and
  the citizens those organizations serve, keeping a focus
  on transparency and accountability. The Social Security
  Administration (SSA) Office of the Inspector General (OIG), too,
  is committed to opening the lines of communication to all of
  our stakeholders, to share our mission and message.

  With this in mind, I am pleased to present our Semiannual
  Report to Congress, covering the period April 1, 2012, through
  September 30, 2012. This report includes our most significant
  audit, investigative, and legal accomplishments, as we
  continue to work with SSA to address critical management
  issues such as improving customer service, reducing improper
  payments, and investing in information technology.

  With that focus on transparency and accountability, during
  this reporting period, we celebrated the first anniversary of the launch of our redesigned
  website, which we believe leads the way in a new era of Federal Government information
  sharing with the American people. We also built on this significant achievement by
  establishing an active social media presence to interact more fully with you. We now
  share the results of our investigative and audit work via Facebook, Twitter, and YouTube,
  as well as through an interactive blog, which allows citizens to engage directly with us.

  My office has risen to the challenge of keeping pace with technological change, while
  remaining committed to meeting our statutory mission of preventing Social Security
  fraud, and improving the Agency’s programs and operations to protect them for future
  generations. In the past six months, our investigators continued to focus on high-priority
  allegations of disability fraud and Social Security number misuse that led to improper benefit
  payments; as well as employee misconduct and representative payee fraud. And, our
  auditors responded swiftly to a congressional call to evaluate SSA’s direct deposit policies
  and procedures, and to identify systemic vulnerabilities.

  In everything we do, we emphasize the importance of stewardship of SSA funds and
  excellent service to the citizens who depend on the Agency for support. I assure you that
  we will continue to communicate and work with SSA and the Congress, to ensure that the
  Agency can fulfill its obligation to all Americans, now and into the future.


                                     S
                                     Patrick P. O'Carroll, Jr.
                                      Inspector General




April 1, 2012 - September 30, 2012                                                                 1
Semiannual Report to Congress




                                             Contents
                    A Message from the Inspector General................... 1
                    Executive Summary................................................. 3
                    Introduction to Our Organization. ........................ 5
                    Audit Impact Initiatives. ........................................... 6
                    Investigative Impact Initiatives................................. 10
                    Threats and Assults Against SSA Employees............ 16
                    Fugitive Felon Enforcement Program.................... 18
                    Legal Impact Initiatives.......................................... 19
                    Value Attained Through Audits.............................. 22
                    Value Attained Through Investigations................... 26
                    Cooperative Disability Investigations Program....... 30
                    Value Attained Through Legal Initiatives................. 34
                    Budget................................................................ 37
                    Human Resource Planning and Management......... 37
                    Information Technology. ..................................... 38
                    Outreach Efforts................................................. 39
                    Social Media....................................................... 40
                    Reporting Requirements and Appendices................. 42
                    Glossary of Acronyms. ....................................... 73




2                                                                           April 1, 2012 - September 30, 2012
                                                                  Semiannual Report to Congress




EXECUTIVE SUMMARY                                  audit work over the past six months included
                                                   reviews of Individual representative payees
This report presents the significant               who have misused benefits and direct
accomplishments of SSA’s OIG from April            deposit changes initiated by the SSA's
1 , 2012 - September 30, 2012. The report is       national 800-number staff
organized according to three major goals
set forth in the OIG Strategic Plan: Fiscal
Years (FY) 2011-2015, second edition:              Value
•	 have a positive impact on SSA's programs;       Our organization strives to provide valuable
•	 provide valuable products and services;         products and services in a timely manner to
   and,                                            the Congress, SSA, and other key decision-
                                                   makers, while sustaining a positive return for
•	 enhance the work experience of our              each dollar invested in OIG activities. During
   people.                                         this reporting period, our auditors identified
                                                   more than $135 million in questioned costs
                                                   and more than $2.6 billion in Federal funds
Impact                                             that could be put to better use. Highlighted
                                                   audits examine representative payees
We work to have a positive impact on SSA
                                                   misusing benefits and the significance of
programs and operations by enhancing
                                                   administrative finality in SSA's programs.
their integrity, efficiency, and effectiveness.
During this reporting period, we received          In the second half of FY2012, we are
71,867 allegations from SSA employees,             reporting over $248 million in monetary
the Congress, the public, law enforcement          accomplishments, including over $50
agencies, and other sources. Our agents            million in SSA recoveries, restitution, fines,
closed 4,029 criminal investigations,              settlements, and judgments; and over
resulting in 269 arrests, 637 indictments          $197 million in projected savings from
and informations, 706 criminal convictions         investigations resulting in the suspension
(including pretrial diversions) and 118 civil      or termination of benefits. In addition, we
judgments/civil monetary penalty (CMP)             participated in multi-agency investigations
assessments.                                       that resulted in over $30 million in savings,
                                                   restitution, and recoveries for other
Highlighted investigations in this section
                                                   agencies.
relate to Social Security number (SSN) misuse,
employee misconduct, and threats against           Our Cooperative Disability Investigations
SSA employees. OIG agents also continued           (CDI) Program continues to be one of our
to work with law enforcement agencies to           most successful initiatives, contributing to
arrest subjects identified through the Fugitive    the integrity of SSA’s disability programs. The
Felon Enforcement Program.                         efforts of our CDI Units during this reporting
                                                   period resulted in more than $166 million in
Our auditors also had a significant impact
                                                   projected SSA program savings, and over
during this reporting period, issuing 56 reports
                                                   $119 million in projected savings to other
and making recommendations on a wide
                                                   programs.
variety of challenges facing the Agency. Our
                                                   During this reporting period, our attorneys
                                                   initiated 138 CMP actions (Section 1129 cases)

April 1, 2012 - September 30, 2012                                                              3
Semiannual Report to Congress




that involved false statements, representations,   with a similar public survey; more than 93
or omissions made in connection with               percent of responders said they found the
obtaining or retaining benefits or payments        site’s information useful.
under Titles II and XVI (Supplemental Security
                                                   We have also created a survey to help
Income) of the Social Security Act (the Act).
                                                   us ensure that this Semiannual Report
Included in our investigative accomplishments
                                                   to Congress is providing the information
on the previous page is over $5.4 million in
penalties and assessments that our attorneys
imposed through our CMP program.
Our attorneys also pursued actions (Section
1140 cases) to protect the public from
fraudulent schemes that make use of the
SSA’s well-deserved reputation. During this
reporting period, the OIG attained voluntary
compliance in 11 cases and deterred future
violations through aggressive enforcement
and outreach efforts.


People
The collective efforts of our employees are
the driving force behind this organization’s
success in achieving its mission. We strive
to provide an encouraging and rewarding
work experience, with the goal of retaining
these exceptional individuals. OIG leadership
fosters an environment where employees
can realize their potential through training
and developmental programs. OIG
components sponsor and encourage
training to inform their employees about
new procedures and share best practices.
During this reporting period, we increased         you need in a user-friendly format.
efforts to gather and listen to feedback           Please let us know what you think by
from our stakeholders. We created a                taking our brief survey located at:
survey to measure OIG’s responsiveness to          http://oig.ssa.gov/survey.
constituent-based congressional inquiries;
about 71 percent of responders said OIG’s
response adequately addressed the
constituent’s concerns. The re-designed
OIG public website launched about a year
ago, and we sought input from site visitors



4                                                             April 1, 2012 - September 30, 2012
                                                              Semiannual Report to Congress




INTRODUCTION TO OUR                             Office of the Counsel to the
ORGANIZATION                                    Inspector General
SSA OIG comprises the Immediate Office          The Office of the Counsel to the Inspector
of the Inspector General and five major         General (OCIG) provides independent
components: the Offices of Audit, Counsel,      legal advice and counsel to the Inspector
External Relations, Investigations, and         General on a wide range of issues, including
                                                statutes, regulations, legislation, and policy
Technology and Resource Management.
                                                directives. OCIG also administers the CMP
                                                program, and advises the Inspector General
                                                on investigative procedures and techniques,
Immediate Office of the                         as well as on the legal implications of audit
Inspector General                               and investigative affairs.
The Immediate Office of the Inspector
General (IO) assists the Inspector General
with the full range of his responsibilities.    Office of External Relations
IO staff also ensures coordination with
                                                The Office of External Relations (OER)
congressional committees, SSA, the
                                                disseminates information about the OIG’s
Social Security Advisory Board, and the
                                                work to Congress, the media, and the
Council of Inspectors General on Integrity
                                                public. OER prepares presentations for
and Efficiency (CIGIE). IO also includes
                                                OIG executives, coordinates the OIG
the Office of Quality Assurance and
                                                presence at government and public events,
Professional Responsibility (OQAPR), which
                                                publishes informational materials, prepares
reviews each OIG component offices to
                                                the Semiannual Report to Congress, and
ensure compliance with Federal laws and
                                                represents the OIG in the news media. OER
regulations, Agency policies, and relevant
                                                also maintains the OIG presence on the
professional standards; and conducts
                                                Internet, and supports OIG components
investigations into allegations of misconduct
                                                with respect to external communications.
by OIG employees.


                                                Office of Investigations
Office of Audit                                 The Office of Investigations (OI) conducts
The Office of Audit (OA) conducts               investigative activity related to fraud,
financial and performance audits of SSA         waste, abuse, and mismanagement in SSA
programs and operations, and makes              programs and operations. This includes
recommendations to ensure that program          wrongdoing by applicants, beneficiaries,
goals are achieved effectively and              contractors, and third parties, as well as
efficiently. Financial audits determine         by SSA employees. This office serves as
whether SSA’s financial statements fairly       the OIG’s liaison to the Department of
present SSA’s financial position, results of    Justice (DOJ) on all investigative matters.
operations, and cash flow. Performance          OI also conducts joint investigations with
audits review the economy, efficiency,          other law enforcement agencies, and it
and effectiveness of SSA’s programs and         shares responsibility with the Department
operations. OA also conducts short-term
                                                of Homeland Security’s (DHS) Federal
management and program evaluations on
                                                Protective Service (FPS) for investigating
issues of concern to SSA, the Congress, and
the general public.                             threats or violence against SSA employees,
                                                and facilities.

April 1, 2012 - September 30, 2012                                                          5
Semiannual Report to Congress




Office of Technology and                     IMPACT
Resource Management
                                             The first OIG Strategic Plan goal is to have a
The Office of Technology and Resource
                                             positive impact on SSA's program. We are
Management          (OTRM)      provides
                                             committed to enhancing SSA’s effectiveness
administrative support to the Inspector
General and OIG components. OTRM             and efficiency through our investigative,
formulates and executes the OIG budget,      audit, and legal activities. During this
and is responsible for strategic planning,   reporting period, we completed numerous
performance reporting, and facility and      audits, investigations, and legal initiatives
property management. OTRM manages OIG        that had a significant impact on preventing
human resources and develops the OIG’s       fraud, waste, and abuse and enhancing the
administrative policies and procedures.      integrity of SSA's programs. The summaries
OTRM also maintains hardware, software,      presented below are examples of our work
and telecommunications networks to           over the past six months.
support the OIG’s mission. Finally, OTRM
manages the OIG’s Allegation Management      Audit Impact Initiatives
and Fugitive Enforcement Division and
Electronic Crimes Division.                  Our Office of Audit contributes to this
                                             strategic goal by conducting and supervising
                                             comprehensive financial and performance
                                             audits, and by making recommendations to
                                             maximize the effective operations of Social
                                             Security programs. These audits, along with
                                             short-term management and program
                                             evaluations, focus on those SSA activities
                                             most vulnerable to fraud,waste, and abuse.


                                             American Recovery and Reinvestment
                                             Act of 2009
                                             On February 17, 2009, the President signed
                                             into law the American Recovery and
                                             Reinvestment Act (Recovery Act), P.L. 111-5.
                                             The Administration is committed to investing
                                             Recovery Act funds with an unprecedented
                                             level of transparency and accountability so
                                             Americans know where their tax dollars are
                                             going and how they are being spent. SSA
                                             was provided funds under the Recovery Act
                                             in the following areas:
                                             •	 $500 million for the replacement of SSA’s
                                                National Computer Center (NCC);




6                                                        April 1, 2012 - September 30, 2012
                                                               Semiannual Report to Congress




•	 $500 million for processing disability and    We contracted with Strategic e-Business
   retirement workloads, and information         Solutions (SeBS) to assist with a review of
   technology acquisitions and research in       contingency plans should delays occur
   support of these workloads; and,              during construction. SeBS determined the
                                                 Agency’s planning documents provided
•	 $90 million to process a one-time
                                                 an extensive range of coverage and
   economic recovery payment (ERP) of
                                                 conveyed the information needed to plan
   $250 to millions of qualified individuals
                                                 for emergencies that could affect the
   receiving Social Security benefits and/       NCC.
   or Supplemental Security Income (SSI).
Congress provided our office $2 million          Because there are many risks involved if
to evaluate SSA programs, projects and           this project were to fall behind schedule,
activities funded by the Recovery Act.           it is critical that GSA and SSA identify
These are two of the reports we issued on        and develop plans for foreseeable
using Recovery Act funds:                        construction delays, including excavation
                                                 challenges and weather-related delays;
                                                 and negotiate contracts with suppliers and
1) Contingency Plans to Maintain                 builders to ensure materials are delivered
Operations if Delays Occur in the                and the work is completed on time.
Construction of the Social Security
Administration’s New Data Center                 This report contains restricted information
(Limited Distribution)                           for official use. Distribution is limited to
                                                 authorized officials.
In 2011, SSA and the General Services
Administration (GSA) decided to locate
the Agency’s new National Support Center
(NSC) in Urbana, Maryland.

The replacement of the NCC with the NSC
is SSA’s most critical information technology
challenge over the next five years. The
NCC was constructed in 1979, and the
building in which it is housed is nearing the
end of its useful physical life. The chance of
a potentially crippling outage at the NCC
increases as time passes.

According to GSA, the timeline for
completing the build-out of the NSC
set a September 2014 date for building
completion, and a January 2015 date for
the commissioning of the building. SSA
estimates that data migration could take
an additional 18 months.




April 1, 2012 - September 30, 2012                                                         7
Semiannual Report to Congress




2) American Recovery and                       Direct Deposit Changes Initiated by
Reinvestment Act of 2009 Funds Used            the Social Security Administration’s
for Health Information Technology              National 800-Number Staff (Limited
Contracts                                      Distribution)
In recent years, promptly processing
disability claims has become increasingly      In October 2011, our office began tracking
difficult for SSA staff because of increased   allegations indicating that individuals—
volume, outdated policies and procedures,      other than Social Security beneficiaries or
and limited resources.                         their representative payees—had initiated
                                               unauthorized changes to direct deposit
To address these challenges, SSA is using      information and redirected beneficiary
Recovery Act funds to work with medical        payments to other accounts.           While
providers so the Agency can collect            investigating this scheme on several fronts,
medical evidence in a standardized             we also initiated several reviews of SSA’s
electronic data format through Health          controls over the processing of beneficiary
Information Technology (HIT). With this        direct deposit information.
effort, SSA hopes to have a more efficient
and effective medical evidence-gathering       As reports        of attempts to make
process to improve the timeliness and          unauthorized changes to beneficiary
quality of disability decisions.               accounts surfaced, SSA in November 2011
We reported that SSA awarded 15 HIT            revised its policy for verifying the identities
contracts with Recovery Act funds, and the     of individuals who request direct deposit
Agency properly accounted for Recovery         changes over the phone. The Agency
Act funds during the contract process. In      also reminded staff how to process such
addition, we reviewed SSA documentation,       requests over the phone, especially if
which indicated the contractors did            notations in SSA systems indicated a
successfully request and receive medical       beneficiary’s information was previously
information through HIT.                       changed fraudulently.

                                               Despite this, our review of the Agency’s
                                               controls over direct deposit changes
                                               by phone found that they were not
                                               fully effective. Accurately verifying an
                                               individual’s identity over the phone presents
                                               more challenges to SSA staff than face-to-
                                               face verification in a field office; thus, the
                                               risk of fraudulent changes is higher.

                                               SSA needs sufficient authentication
                                               controls in place to prevent the processing
                                               of unauthorized changes to a beneficiary’s
                                               direct deposit records.       Confirming a
                                               beneficiary’s personal information does
                                               not guarantee the caller is the beneficiary;
                                               however, SSA has beneficiary-specific



8                                                           April 1, 2012 - September 30, 2012
                                                                Semiannual Report to Congress




information in its systems it could request       Generally, the deaths were not on the
for additional verification purposes.             Numident because the beneficiaries’
                                                  information on SSA’s payment records or
This report contains restricted information       death report did not match the beneficiaries’
for official use. Distribution is limited to      information on the Numident. We also
authorized officials.                             found that SSA staff incorrectly deleted
                                                  death information from the Numident. In
Title II Deceased Beneficiaries Who Do            response, SSA said it would analyze its death
Not Have Death Information on the
Numident
SSA receives death information from
Federal, State, and local agencies as well
as entities such as funeral homes, hospitals,
etc. The Agency matches these reports
against its own electronic payment records
to identify and prevent improper payments
to deceased beneficiaries. SSA records this
death information on the Numident, the
Agency’s master database of SSN holders.
The Agency uses death information from
the Numident for a number of purposes,
including to:
1.	 create the Death Master File (DMF), a
    data extract that public and private
    entities use to verify death and prevent
    fraud;
2.	 determine whether wages are erroneous;
    and
3.	 assist DHS with determining the eligibility
    of newly hired employees to work in the
    United States.
To identify and prevent improper payments
to deceased beneficiaries, SSA also
matches death reports from Federal, State,
and local agencies against its electronic
payment records. However, SSA needs to            processing system and develop a method
improve its controls to ensure it accurately      for identifying deceased beneficiaries who
records beneficiaries’ death information. In      have death information on the Master
this review, we determined that SSA did not       Beneficiary Record but not on the Numident.
record death information on the Numident
for about 1.2 million deceased beneficiaries.



April 1, 2012 - September 30, 2012                                                           9
Semiannual Report to Congress




                         Investigative Impact Initiatives
Our Office of Investigations examines and investigates allegations of fraud, waste, abuse, and
mismanagement in SSA programs and operations. These allegations may involve issues such as
benefit fraud, SSN misuse, violations by SSA employees, or fraud related to grants and contracts.
Our investigations often result in criminal or civil prosecutions or the imposition of CMPs against
offenders. These investigative efforts improve SSA program integrity by recovering funds and
deterring those contemplating fraud against SSA in the future. Our work in the areas of program
fraud, enumeration fraud, SSN misuse, and other Social Security-related fraud ensures the
integrity of SSA programs.




                                Investigative Results
                             10/1/11-3/31/12         4/1/12-9/30/12            FY 2012 Total

 Allegations Received             63,368                  71,867                  135,235


 Cases Opened                      3,969                  4,101                    8,070


 Cases Closed                      3,804                  4,029                    7,833


 Arrests                            283                    269                      552

 Indictments/
                                    521                    637                     1,158
 Informations

 Criminal Convictions               703                    706                     1,409


 Civil/CMPs                         108                    118                      226




10                                                                 April 1, 2012 - September 30, 2012
                                                           Semiannual Report to Congress




                         Cases Opened by Program Category
                          April 1, 2012 - September 30, 2012




                           Cases Closed by Program Category
                            April 1, 2012 - September 30, 2012




April 1, 2012 - September 30, 2012                                                   11
Semiannual Report to Congress




                          Allegations Received by Source
                           10/1/11 – 3/31/12   4/1/12 – 9/30/12            FY 2012

  SSA Employees                 25,081             34,927                  60,008

  Private Citizens              17,996             18,510                  36,506

  Anonymous                     13,569             13,826                  27,395

  Law Enforcement                1,735              1,325                   3,060

  Beneficiaries                  1,221              1,486                   2,707

  Public Agencies                3,751              1,779                   5,530

  Other                           15                 14                       29

  TOTAL                         63,368             71,867                  135,235




                         Allegations Received by Category
                           10/1/11 – 3/31/12   4/1/12 – 9/30/12            FY 2012

  Disability Insurance          24,908             27,251                   52,159

  SSI Disability                14,560             15,350                   29,910

  SSN Misuse                     6,451              7,009                   13,460
  Old-Age and
                                11,673             15,564                   27,237
  Survivors Insurance
  Other                          3,412              3,431                   6,843

  Employee-Related               1,301              1,371                   2,672

  SSI Aged                       1,063              1,891                   2,954

  TOTAL                         63,368             71,867                  135,235




12                                                          April 1, 2012 - September 30, 2012
                                                             Semiannual Report to Congress




    Disability Program Fraud                    that, in fact, they were the same person.
                                                We determined that the man had applied
Maryland Woman Conceals Marriage                for SSNs with two different names, and
and Income to Receive SSI                       had been receiving SSI under one SSN for
Acting on information provided by the           20 years and under the other SSN for 15
Annapolis, Maryland SSA office and the          years. He listed the same address on both
U.S. Attorney’s Office, our Baltimore office    SSA records, but kept two different bank
investigated a woman who had received           accounts for the direct deposit payments.
SSI since 2003 for a back disorder, claiming    In July 2012, after the man pled guilty to
that she was not married and had no             theft of Government funds, a U.S. District
resources. We determined that not only          Court judge sentenced him to 1 year in
was the woman married and operating a           prison and 3 years’ probation; and ordered
business, but she had multiple aliases and      him to pay restitution of $102,279 to SSA.
a long criminal history. At the same time,
the FBI was investigating her for defaulting
on mortgages obtained using stolen
identities; obtaining a business loan by
falsely reporting assets and income of $12
million; and defrauding Medicare by billing
for services never provided by her business.
The total fraud loss from this case, which
we investigated under the auspices of the
Maryland Mortgage Fraud Task Force, was
$2.6 million.
In June 2012, after the woman pled guilty
to bank fraud, a U.S. District Court judge
sentenced her to 5 years in prison and 5
years’ probation, with restitution to various
Federal agencies and financial institutions
to be determined.




Florida Man Uses Two Identities to
Receive SSI
Based on a referral from the Lakeland,
Florida SSA office, our Clearwater, Florida
office investigated a man fraudulently
receiving SSI under two identities. The SSA
office suspected fraud based on further
development after an OIG audit identified
two men receiving SSI while living at the
same address. Our investigation revealed


April 1, 2012 - September 30, 2012                                                     13
Semiannual Report to Congress




 Representative Payee Fraud                      order to keep the company solvent.
                                                 The payee’s board of directors fired the
Business Owners Steal $1.4 Million from          CEO and dissolved the business. In May
750 Clients                                      2012, after the CEO pled guilty to theft of
Based on a referral from the Tucson,             Government funds, a U.S. District Court
Arizona SSA office, our Phoenix office           judge sentenced her to 3 years’ probation,
investigated the three owners of an Arizona      and ordered her to pay restitution of
organizational payee. Between 1994 and           $105,867 to SSA.
2008, we determined that the business
misused the SSA benefits of over 750 clients.
                                                 Woman Conceals Loss of Custody to
The owners conspired to charge their
clients excessive fees, steal clients’ monthly
                                                 Continue Receiving Benefits
                                                 Acting on an anonymous tip, our
payments rather than manage them, and
                                                 Washington, D.C. office investigated
make false entries in financial records to
                                                 a woman who was the representative
disguise the diverted money. Overnight,
                                                 payee for her daughter. In March 2004,
the business closed its doors without any
                                                 Washington, D.C. social workers removed
warning to its low-income, disabled clients,
                                                 the daughter from the mother’s custody
many of whom had nobody else to help
                                                 and placed her in foster care. However,
manage their finances.
                                                 the woman did not report this to SSA,
                                                 and continued to receive Title II survivors’
In May 2012, after the three pled guilty to
                                                 benefits on the child’s behalf. In June 2008,
mail fraud and Social Security fraud, a U.S.
                                                 the girl’s foster mother adopted her, and
District Court judge sentenced them to 110,
                                                 discovered that the biological mother had
70, and 30 months in prison respectively;
                                                 been receiving her daughter’s benefits
and ordered them to pay restitution of
                                                 and using the funds for her own needs.
$1,435,093 to SSA.
                                                 In August 2012, after the woman pled guilty
CEO of Organizational                Payee       to Social Security fraud, a U.S. District Court
Defrauds Beneficiaries                           judge sentenced her to 8 months in prison
Acting on a referral from the Greenfield,        and 3 years’ probation; and ordered her
Wisconsin SSA office, our Milwaukee              to pay restitution of $54,750 to SSA.
office investigated the Chief Executive
Officer (CEO) of an organizational
representative payee. During a routine                           SSA Fraud
review of the company’s records, SSA             Florida Man Receives Deceased
discovered accounting irregularities; and
                                                 Mother’s Benefits for 15 Years
a company employee suggested that the
CEO was personally responsible for those         Acting on a referral from the Brevard
irregularities. We determined that from          County, Florida Sheriff’s Office, our
December 2008 until September 2010,              Jacksonville office investigated a Florida
the CEO had misdirected clients’ SSA             man who concealed his mother’s death
benefits from their bank accounts into the       from SSA. In 1992, an unidentified woman’s
company’s general operating account in           body was found in Brevard County, Florida;
                                                 however, the woman was not identified
                                                 until late 2010, through a forensic exam.
                                                 We determined that between January
                                                 1993 and June 2008, the woman’s son

14                                                            April 1, 2012 - September 30, 2012
                                                              Semiannual Report to Congress




continued to receive and spend his              Court judge sentenced him to 20 months in
mother’s monthly SSA benefits.                  prison and 3 years’ probation. He was also
                                                ordered to pay restitution of $98,862 to SSA.
In June 2012, after the man pled guilty to
theft of Government property, a U.S. District
Court judge sentenced him to 4 years in         Man with Power of Attorney Conceals
prison and 3 years’ probation; and ordered      Beneficiary's Death for 11 Years
him to pay restitution of $158,992 to SSA.
                                                Based on a referral from SSA’s Southeastern
                                                Program Service Center, our Greensboro,
Man Fakes His Own Death to Create               North Carolina office investigated a man
SSA Benefit Entitlement                         who concealed the death of an SSA
Acting on a tip received via the OIG            beneficiary so he could continue to receive
Fraud Hotline, our Santa Ana, California        her benefits. The Durham, North Carolina
office investigated a California man who        SSA office identified a woman who died
faked his own death. The man and his wife
conspired to create a false Mexican death
certificate for the man so his family could
collect Social Security survivors’ benefits
and Teamsters Union pension benefits.
From 2004 through August 2011, the man’s
family fraudulently received $256,510 from
SSA and $156,490 from the Teamsters Union.

In May 2012, after the man and his wife pled
guilty to grand theft, a State Superior Court
judge sentenced them both to 2 years in
prison and 2 years’ probation; and ordered
them to make full restitution to SSA and the
Teamsters Union pension fund.

Arizona Man Receives Deceased
Mother’s SSA Benefits
Acting on a tip reported via the OIG
Fraud Hotline, our Phoenix, Arizona office
investigated a man who concealed his
mother’s death. Our investigation confirmed
that the man’s mother died and was
cremated in February 2000, but he continued
to receive and spend his mother’s monthly
Social Security benefits and failed to report
her death to SSA. He was arrested in 2009,
but he failed to appear for his next court
date and was arrested again in 2010.
                                                in 1999, but her benefits continued to be
In May 2012, after the man pled guilty to       direct deposited into a bank account with
theft of Government funds, a U.S. District      a joint owner. Our investigation determined


April 1, 2012 - September 30, 2012                                                        15
Semiannual Report to Congress




that the beneficiary had no children, so          fraudulent claims, and aggravated
she gave a longtime family friend power           identity theft. A U.S. District Court judge
of attorney and added him to her bank             sentenced him to 57 months in prison and 3
account to manage her funds. After her            years’ probation; and ordered him to pay
death, the man continued to access and            restitution of $82,708 to the U.S. Treasury.
spend her SSA benefits from July 1999
through December 2010.
In June 2012, after the man pled guilty to        Former SSA Claims Representative
theft of Government property, a U.S. District     Convicted of Wire Fraud and Theft
Court judge sentenced him to 10 months in
prison and 3 years’ probation. He was also        Based on information provided by the
ordered to pay restitution of $82,373 to SSA.     Whittier, California SSA office, our Los
                                                  Angeles office investigated an SSA claims
                                                  representative who, under the guise of
                                                  collecting SSA overpayments, solicited
          Employee Cases                          payments from SSA beneficiaries and
                                                  deposited the funds into her personal bank
SSA Intern Conspires to Steal Identities          accounts.
for Fraudulent Tax Returns
                                                  In August 2012, after she pled guilty to
Working with the U.S. Secret Service and the      wire fraud and theft by a government
North Miami, Florida Police Department,           employee, a U.S. District Court judge,
our Fort Lauderdale office investigated an        sentenced her to 6 months in prison, 3
unpaid SSA student intern for stealing SSA        years’ supervised release, and ordered her
documents containing the information              to pay restitution of $31,829 to the victims
of SSA claimants. The intern then sold            and a special assessment fee of $200. The
these documents to another man, who               employee resigned from SSA following her
used the claimants’ information to file           arrest.
fraudulent Federal income tax returns and
claim refunds to which he wasn’t entitled.
The refunds were sent to the student’s
residence or other addresses his conspirator      Threats and Assaults Against
controlled.                                       SSA Employees
In June 2012, after the student pled guilty       Employee safety is of paramount concern
to conspiracy to defraud the Government           to SSA and the OIG. Social Security
with respect to claims, a U.S. District Court     employees must be vigilant as the number
judge sentenced him to 1 year in prison           of Americans who depend on government
and 3 years’ probation; and ordered him           services increases during times of economic
to pay restitution of $82,708 to the U.S.         challenge.
Treasury. He was also barred from the SSA
office. His conspirator pled guilty to multiple   The Inspector General’s OI shares the
charges, including conspiracy to defraud          responsibility for investigating reports of
the United States by obtaining and aiding         threats of force or use of force against
to obtain the payment of false and                Agency employees with DHS FPS which has
                                                  jurisdiction over physical property owned


16                                                            April 1, 2012 - September 30, 2012
                                                                 Semiannual Report to Congress




or leased by the Federal Government, and          Seattle Area Man Assaults Guard
with local law enforcement if the activity
occurs off federally owned or leased              Based on a referral from the North Seattle,
property.                                         Washington SSA office, our Seattle office
                                                  investigated a man who assaulted a
During the reporting period, the OIG received     security guard. In March 2012, the man
over 800 allegations nationwide related to        entered the SSA office wearing a backpack
employee safety issues, of which over 200         and a fanny pack, and refused to allow
involved assault or harassment and over 500       the security guard to inspect the items. A
were associated with threats against SSA          struggle ensued when the guard tried to
employees or buildings. OI opened over 30         detain the man. The man assaulted the
cases and closed over 60 cases nationwide         guard, kicking him in the head, placing him
related to employee safety.                       in a chokehold, and kneeing him in his head
                                                  and back. Two SSA employees were able
The following case summaries highlight
                                                  to pull the man off of the guard, and the
significant investigations we conducted
                                                  man was subdued and handcuffed. Local
during this reporting period in which SSA
                                                  police and EMS responded to the scene,
employees were threatened by members
                                                  and the man continued to threaten the
of the public.
                                                  guard verbally.
                                                  In May 2012, after the individual pled guilty
          Employee Safety                         to assaulting a Federal employee, a U.S.
                                                  District Court judge sentenced him to 60
Georgia Man Threatens SSA Employee
                                                  days in prison.
Over Pending Claim
Our Atlanta, Georgia office investigated
a man who left a threatening message for          Man Injures Guard and Damages SSA
an Augusta, Georgia SSA employee related          Office
to the processing time of his pending SSI
                                                  Based on a threat report received from
disability claim. He then spoke with another
                                                  the Gloversville, New York SSA office, our
SSA employee via telephone and again
                                                  Albany office investigated an SSI disability
made threatening comments about the
                                                  recipient who assaulted a contract guard
processing time of his claim, threatening to
                                                  and caused property damage to the SSA
harm the office’s Protective Security Officer
                                                  office. On April 2, 2012, during his disability
if SSA didn’t approve his claim quickly.
                                                  interview in the Gloversville office, the man
In April 2012, after the individual pled guilty   became loud and was escorted from the
to making harassing telephone calls, a            building by a security guard. While leaving
Superior Court judge sentenced the man            the office, the man broke an exterior window
to 1 year in prison.                              and an interior door, and injured the guard.
                                                  In June 2012, after the man pled guilty to
                                                  assault and criminal mischief, a New York
                                                  Court judge sentenced him to time served
                                                  (4 months). In August 2012, the judge also
                                                  ordered the man to pay a civil judgment of
                                                  $1,100 to SSA for the damage to the office.

April 1, 2012 - September 30, 2012                                                            17
Semiannual Report to Congress




Fugitive Felon Enforcement                      •	 OIG agents and members of the Dallas
Program                                            Police Department and the USMS
                                                   arrested an SSA beneficiary on two
The OIG’s Fugitive Felon Enforcement               residential burglary warrants dated
Program identifies individuals reported to         March 2012 and June 2012 with a bail
have outstanding felony arrest warrants            of $50,000 each. The beneficiary was
and outstanding warrants for parole and            associated with the South Central Los
probation violations. SSA shares its location      Angeles Bloods Gang.
information for wanted felons with local
law enforcement agencies to assist in their     •	 OIG agents and members of the New
apprehension efforts. In turn, these agencies      York/New Jersey Regional Fugitive Task
advise SSA on the disposition of the warrant       Force arrested an SSA beneficiary on
so SSA can take appropriate administrative         a warrant dated July 2012 for Violation
action on the benefits.                            of Probation on a charge of Grand
                                                   Larceny.
Our data-sharing efforts with law
enforcement agencies contributed to the         •	 OIG agents and members of the U.S.
arrest of 204 subjects during the reporting        Marshals Service Pacific Northwest
period, and more than 95,500 arrests since         Violent Offender Task Force in Coeur
the program’s inception in 1996. The               D’Alene, Idaho arrested an SSA
following are some examples of fugitive            beneficiary on a California Department
felon activities during the past six months:       of Corrections warrant dated February
                                                   2012 for a Violation of Parole for a
•	 OIG agents and members of the
                                                   charge of Rape. The SSA beneficiary
   Boston Police Department and Deputy
                                                   was located through the beneficiary’s
   U.S. Marshals operating under the U.S.
                                                   social media activity on the internet.
   Marshals Service (USMS) Boston Regional
   Sex Offender Apprehension Project
   arrested an SSA beneficiary on four
   warrants. The 1st warrant was Failure
   to Register as a Sex Offender, dated
   June 2012. The 2nd warrant was Failure
   to Register as a Sex Offender, dated
   July 2012 (Homeless 2nd offense). The
   3rd warrant was Violation of Probation,
   dated August 2010 for violating a high
   misdemeanor Abuse Prevention Order;
   and the 4th warrant was another
   Violation of Probation dated April 2011
   for Threatening to Commit a Crime.




18                                                         April 1, 2012 - September 30, 2012
                                                                 Semiannual Report to Congress




Legal Impact Initiatives                          Missouri Company Agrees to Pay CMP
                                                  to Settle Alleged Violation
                                                  Hermeris, Inc. doing business as SimpleFilings.
Section 1140 Enforcement                          com of Kansas City, Missouri, agreed to pay
Section 1140 of the Act protects the public       a civil monetary penalty of $82,000 to settle
by prohibiting the misuse of SSA words            the OIG’s claim that the company violated
and symbols in misleading advertisements,         Section 1140. SimpleFilings.com used the
solicitations, or other communications. It        domain names gov-tax.net/ssn-card and
also prohibits the reproduction and sale of       simplefilings.gov-tax.net/ssn-card to direct
SSA forms without authorization from SSA.         users to its SimpleFilings.com website, a self-
                                                  described “Social Security card application
Misleading communications running afoul           preparation service.”
of Section 1140 take many forms, such as
deceptive paper-based mailers, misleading         The OIG received complaints from
attorney advertising, and more recently           consumers, who asserted that these domain
and at an alarming rate, misleading               names conveyed the false impression that
Internet solicitations, including the Internet-   SimpleFilings.com had some connection
based sale of otherwise free Social Security      with SSA.
forms. Internet scammers, in the pursuit of       Without admitting that it violated Section
financial gain and/or the accumulation            1140, SimpleFilings.com agreed to pay a
of personally identifiable information (PII),     civil monetary penalty and discontinue
utilize misleading domain names, develop          use of the offending domain names; and
misleading websites, and place deceptive          voluntarily made changes to its website to
advertisements with search engines to             clarify its services.
create a false sense that they are somehow
associated with SSA.
OCIG, using authority delegated by the            Illinois Company Agrees to Pay CMP
Commissioner and the Inspector General,           to Settle Alleged Violation of the Act
aggressively enforces Section 1140. The           Juice Advertising, LLC,doing business as
statute provides for up to $5,000 in CMPs for     Social-Security-Expert.com, of Chicago,
each violation of the Act, and $25,000 for a      Illinois agreed to pay a civil monetary
broadcast or telecast. Penalties collected        penalty after the OIG asserted that Social-
for violations of Section 1140 are deposited      Security-Expert.com placed search engine
into SSA’s Old Age and Survivors Trust Fund.      advertisements for its website with the
                                                  Microsoft Corporation (via its Bing and
                                                  Yahoo! search engines) using the phrases
                                                  “Ssa.gov” and “Socialsecurity.gov” (actual
                                                  domain names used by the Social Security
                                                  Administration) in order to direct customer
                                                  traffic to its site.
                                                  Without admitting that it violated Section
                                                  1140, Juice Advertising, in addition to
                                                  agreeing to pay a civil monetary penalty,


April 1, 2012 - September 30, 2012                                                            19
Semiannual Report to Congress




agreed to comply fully with Section 1140       With our help, the credit card company
of the Act and permanently cease and           created a filtering system to identify
desist from using the phrases “Ssa.gov”        websites that may violate Section 1140 and
and “Socialsecurity.gov” in any future         accept its credit card as a form of payment.
advertisements.                                The company now refers all websites that it
                                               identifies through this filtering system to the
                                               OIG for review.

Section 1140 Outreach Program                  This proactive approach has allowed us
                                               to take immediate action to shut down
In response to the alarming increase in        two North Carolina-based websites
Internet-based fraud schemes, OCIG             operating in violation of Section 1140,
launched a Section 1140 Outreach               socialsecuritycardservice.com (pictured
Program at the beginning of FY 2012.           on following page) and social-security-
OCIG has successfully collaborated             card-now.com, in just a few short weeks
with major search engine companies,            after receiving notification. The websites’
domain registrar companies, and financial      operator, Intelligent Web Marketing, Inc.
institutions that would-be scammers need       (“IWM”) of Albemarle, North Carolina,
in order to conduct their Internet-based       without admitting that it violated Section
schemes. These efforts have educated           1140, immediately agreed to cease
these companies about Section 1140 and         its violative operations and pay a civil
assisted OIG in gaining valuable insight       monetary penalty to settle the OIG’s claim
into key technical aspects of how these        that the company violated Section 1140.
scams operate. These companies are
now working with the OIG to establish          Since the initiation of our Outreach Program
mechanisms to quickly and efficiently          in FY 2012, the OIG has successfully shut
identify and halt fraud schemes, and are       down 23 Internet-based fraud schemes.
implementing proactive mechanisms with         You can learn more about our Section
the goal of preventing fraud schemes from      1140 Outreach Program in the forthcoming
occurring.                                     Fall/Winter 2011/2012 edition of the Journal
                                               of Public Inquiry, in an article titled An
Based on our outreach efforts, Google          Ounce of Outreach is Worth a Pound
and Microsoft (which powers both Bing          of Enforcement. The new edition of the
and Yahoo! search engines) modified            Journal will be available at this website:
their AdWords Terms and Conditions and         www.ignet.gov/randp/jpi1.html.
Ad Content and Style Guidelines policies,
respectively, to protect its users from
advertisements, websites, and businesses
that create the false impression of a
connection with a governmental agency.
We convinced these and other entities
that working with us would not only protect
the public and Social Security's reputation,
but the company's own reputation as well.




20                                                          April 1, 2012 - September 30, 2012
                                                                    Semiannual Report to Congress




                                       SECTION 1140

                                     10/1/11 – 3/31/12   4/1/12 – 9/30/12      FY 2012


   Cases Reviewed                           30                 16                46


   Cases Closed - No
                                            14                  5                19
   Violation of Section 1140


   Cases Successfully
   Resolved (Voluntary
                                            16                 11                27
   Compliance and
   Settlement Agreement)


   Penalties Imposed                     $50,000             $88,500          $138,500




April 1, 2012 - September 30, 2012                                                            21
Semiannual Report to Congress




VALUE                                              Using Medicare Claim Data to Identify
                                                   Deceased Beneficiaries
The second goal of the OIG Strategic               There are many opportunities for SSA to use
Plan is Value. All OIG initiatives strive to       data matches to improve the efficiency
provide value to SSA, the Congress, other          and integrity of its operations and its delivery
key decision-makers, and the public                of benefits to the American public. In this
by delivering timely and reliable audit,           report, we showed that SSA could use
investigative, and legal products and              enhanced Medicare claim data to identify
services. To achieve their intended value,         deceased beneficiaries in less time and with
these products and services must effectively       fewer resources.
meet the needs of those we serve while
maximizing our available resources. To do          We obtained an extract of people age 90 or
this, we integrate best-practice strategies        older, enrolled in Medicare, and in current
and the newest technologies to increase            SSA payment status. We then identified a
our productivity and maximize our return on        population of Social Security beneficiaries
investment to the public.                          who did not use Medicare from 2007 to
                                                   2009; from this group, we randomly selected
                                                   and attempted to contact 125 beneficiaries
Value Attained Through                             to find out if they were alive and entitled to
Audits                                             benefits.
                                                   Based on our findings, we estimated that
Many of our audits focus on identifying
                                                   SSA overpaid 890 deceased beneficiaries
SSA programmatic and operational areas
                                                   about $99 million. Further, we estimate that
where funds could be put to better use. In
                                                   over the next year, SSA will pay about $9
addition, we often question approaches
                                                   million in additional overpayments to these
and their accompanying costs, and we
                                                   deceased beneficiaries.
recommend alternatives to yield program
and operational savings.                           SSA said it would:
During this reporting period, our auditors         1.	 work with Centers for Medicare &
issued 56 reports, identifying over $135 million       Medicaid Services to establish a data-use
in questioned costs and over $2.6 billion in           agreement to identify aged beneficiaries
Federal funds that could be put to better              who are not using Medicare;
use. Some of our most notable audits are
                                                   2.	 expand the use of electronic death
summarized below.
                                                       exchange information with foreign
                                                       governments who are willing to share
                                                       such information; and,
                                                   3.	 work with the banking industry, as allowed
                                                       under the law, to find inactive bank
                                                       accounts or deceased beneficiaries,
                                                       thus avoiding overpayments.




22                                                              April 1, 2012 - September 30, 2012
                                                Semiannual Report to Congress




Disabled Individuals with Mental
Impairments in Need of a
Representative Payee
If SSA learns that beneficiaries might have
a mental or physical impairment that
prevents them from managing their benefits,
the Agency must perform a capability
determination and, if necessary, assign a
representative payee.
Our report identified about 6.5 million
beneficiaries who received Disability
Insurance (DI) or SSI because of a mental
impairment; of which, about 3.5 million did
not have a representative payee.
Based on the results of interviews with a
sample population of beneficiaries with
mental impairments, we estimated that more
than 208,000 such beneficiaries received
more than $200 million in monthly benefits
and might be incapable of managing these
funds. Without a representative payee to
oversee these funds, the benefits are at risk
of inappropriate use.
SSA said it would consider options to make
mentally impaired beneficiaries, their family
members, and the public aware that a
representative payee might be needed
if situations change and an individual
becomes incapable of managing his/her
benefits.




April 1, 2012 - September 30, 2012                                        23
Semiannual Report to Congress




Significance of Administrative Finality           Beneficiaries Who Had Not Cashed
in SSA’s Programs                                 Their Social Security Checks Within 1
Administrative finality is the principle that     Year
SSA’s initial Old-Aged and Survivors Disability   People who receive Social Security benefit
Insurance (OASDI) and SSI eligibility             checks may cash them up to one year after
determination and payment amounts                 the check’s issue date; after one year, the
become final and binding on both parties,         checks are non-negotiable.
unless they are timely appealed or later
revised for certain reasons within certain        If the Department of the Treasury’s records
time periods.                                     indicate a beneficiary did not cash a check,
                                                  the Treasury returns the funds to SSA. SSA
Consequently, if conditions to reopen a           sends a letter to the beneficiary to ask if he/
determination do not exist or time limits         she received and cashed the check. SSA
have expired, SSA generally will not revise       reviews the records of the beneficiaries who
                                                  respond to the letter, and if appropriate,
the benefits and will continue to make
                                                  reissues the check. If beneficiaries do not
the overpayment or underpayment
                                                  respond to the letter or indicate a cashed
throughout the beneficiary’s or recipient’s
                                                  payment, no action is required.
lifetime. SSA also does not pursue recovery
or any resulting overpayments.                    Our report said SSA should ensure it takes
                                                  appropriate action to reissue payments to
For example, we identified a beneficiary          eligible beneficiaries who had not cashed
who received a full retirement benefit            their Social Security checks. Based on our
under her own SSN, and another full benefit       random sample of 250 beneficiaries, 202
under her deceased spouse’s SSN, which            (or 81 percent) were eligible for payment.
resulted in an $870 monthly overpayment.          This occurred because:
The overpayments started in 1982 and
caused a total overpayment of about               1.	 SSA did not take corrective actions when
$215,000. Because of SSA’s administrative             beneficiaries or representative payees
finality rules, the Agency will not reopen this       responded to SSA’s letters;
case, and this overpayment will increase          2.	 Representative payees might not have
throughout the beneficiary’s lifetime.                met their responsibilities to beneficiaries
                                                      in their care;
Our report recommended that SSA
evaluate its administrative finality policies     3.	 Beneficiaries might not have been
and regulations, and consider revising the            capable of managing their benefits
rules to allow for the collection of more debt.       when SSA issued the checks;
SSA agreed with this recommendation.              4.	 SSA did not send required letters to inform
                                                      beneficiaries they had not cashed a
                                                      check; or,
                                                  5.	 SSA policy differences for uncashed
                                                      benefit checks may have led to
                                                      different results between Social Security
                                                      beneficiaries and SSI recipients.




24                                                             April 1, 2012 - September 30, 2012
                                                                 Semiannual Report to Congress




Individual Representative Payees                  SSI Recipients Who Did Not Report
Who Misuse Benefits                               Their Marriage to SSA
For any number of mental or physical              Many factors, including marital status, affect
reasons, some people cannot manage their          the amount of a recipient’s SSI payment.
finances. For such Federal beneficiaries,         Specifically, when someone receives SSI,
Congress allows payments to go to a               SSA considers his or her spouse’s income
representative payee, who manages funds           available to meet the person’s needs, and
for the beneficiary.                              such income might reduce the person’s
                                                  payment amount.
When an individual representative payee
serves 15 or more beneficiaries and misuses       Generally, SSA relies on SSI recipients to self-
the benefits, SSA repays benefits in all cases,   report any changes in their marital status
according to the Social Security Protection       or living arrangements. In this audit, we
Act of 2004. But, if misuse occurs and the        sought to identify and quantify improper
individual representative payee serves 14         payments made to SSI recipients who were
or fewer beneficiaries, SSA repays benefits       married to OASDI beneficiaries, but did not
only if the Agency negligently failed to          report their marriage to SSA.
investigate or monitor the payee.
                                                  Based on a sample population, we
Our report found that SSA did not always          estimated that SSA overpaid about 900 SSI
take appropriate actions concerning               recipients about $8.2 million because the
individual representative payees who              recipients did not report their marriages to
served 14 or fewer beneficiaries and who          the Agency.
misused benefits.
                                                  For example, a South Carolina couple
Specifically, the Agency did not always:          began receiving SSI payments in December
                                                  2004, and a year later, the wife reported to
•	 obtain restitution from payees when it         SSA that she and her husband no longer
   could use benefit adjustment to do so;         lived together—when they still did. In
•	 pay     beneficiaries   when     Agency        August 2011, the woman admitted that
   negligence was determined;                     she lied about the separation because
•	 document negligence decisions;                 she was concerned that her husband’s
•	 refer instances of misuse to the OIG; or       income and resources would affect her
•	 make restitution to beneficiaries when         SSI payments. With this information, SSA
   misused funds were collected from              assessed a $15,000 overpayment on the
   payees.                                        woman’s record and referred the case to
                                                  OI for investigation.
SSA has taken actions intended to
improve its oversight and management              Our review showed that SSA could identify
of these payees. The Agency in recent             about $8.2 million in overpayments. If the
years released versions of its Electronic         Agency stopped these improper payments
Representative Payee Misuse System and            to SSI recipients who do not report marriage
revised its policies. However, SSA needs          or living arrangements, SSA could save an
to take additional actions to improve its         estimated $3.4 million over the next year.
oversight and management of individual
representative payees to detect and
prevent misuse.

April 1, 2012 - September 30, 2012                                                             25
Semiannual Report to Congress




                      Value Attained Through Investigations
During this reporting period, the efforts of our investigators yielded significant results arising from
the successful prosecution of cases that we developed. Our investigators achieved over $248
million in monetary accomplishments, with over $50 million in SSA recoveries, restitution, fines,
settlements, and judgments; and $197 million in projected savings from investigations resulting
in the suspension or termination of benefits. The following table represents the efforts of OI
personnel nationwide to recover SSA funds paid in fraudulent benefits or through other illegal
actions.




                                  SSA FUNDS REPORTED

                           10/1/11 – 3/31/12         4/1/12 – 9/30/12              FY 2012


        Recoveries             $26,325,718             $27,029,145              $53,354,863


           Fines               $2,039,761               $2,634,677               $4,674,438

       Settlements/
                               $1,573,756                $869,270                $2,443,026
        Judgments

        Restitution            $22,835,877             $20,297,509              $43,133,386


     Estimated Savings        $200,659,741             $197,835,473             $398,495,214


          TOTAL               $253,434,853             $248,666,074             $502,100,927




26                                                                   April 1, 2012 - September 30, 2012
                                                               Semiannual Report to Congress




The following case summaries are                 In July 2011, after she pled no contest to
representative of the more than 4,000            grand theft, a Superior Court of California
investigations we closed during this             judge sentenced her to 36 months’
reporting period. They illustrate the many       probation, and ordered her to pay restitution
instances where our investigative efforts        of $212,413 to SSA.
have resulted in a significant return on
investment.
                                                 Polish Death Certificates Prove
                                                 Daughter’s SSA Fraud
         Deceased Payee
                                                 As a result of the SSA Centenarian Project,
                                                 a program designed to ensure that
California Man Conceals Mother’s                 SSA benefits are paid to eligible, living
Death from SSA for over 20 Years                 individuals, our Hartford, Connecticut office
                                                 investigated a woman who continued to
Agents in our Los Angeles office investigated
                                                 receive and use Title II retirement benefits
a 74-year-old-man who had concealed
                                                 of her deceased parents. The woman’s
the death of his mother for 23 years. From
                                                 mother and father resided in Poland and
June 1987 through July 2009, the man
                                                 died in 2000 and 2006, respectively. Our
accessed SSA benefits deposited into a
                                                 agents confirmed the dates of death after
joint checking account belonging to him
                                                 obtaining Polish death certificates.
and his deceased mother. This investigation
was initiated after SSA attempted to do a        In June 2012, after the woman pled guilty
home visit and discovered the beneficiary        to theft of Government property, a U.S.
was dead.                                        District Court judge sentenced her to 6
In July 2012, after the man pled guilty to       months of electronically monitored home
theft of public money and making a false         confinement, 5 years of probation, and 200
statement, a U.S. District Court judge           hours of community service. Additionally,
sentenced him to 5 years’ probation and          the judge ordered her to pay restitution of
ordered him to pay restitution of $228,198       $186,608 to SSA.
to SSA.


Daughter Fraudulently Obtains Over
$212,000 in SSA Benefits
Acting on a referral from our Office of Audit,
our Los Angeles office investigated the
daughter of a deceased Title II retirement
beneficiary, who failed to report her mother’s
death and received the deceased’s benefits
for 21 years. The woman, who advised our
agents that the death information was given
to SSA, continued to receive her deceased
mother’s SSA benefits by direct deposit.


April 1, 2012 - September 30, 2012                                                         27
Semiannual Report to Congress




Grandson Defrauds SSA for 17 Years              North Carolina Man Uses Others’ SSNs
                                                to Conceal Employment
As a result of the SSA Centenarian Project,
our El Paso, Texas office investigated a New    In response to a referral from the Whiteville,
Mexico man who used the Title II survivors’     North Carolina SSA office, our Greensboro
benefits intended for his grandmother. The      office investigated a DI beneficiary who
man’s grandmother died in October 1993.         concealed his employment from SSA. From
                                                March 2007 through October 2011, the man
In May 2012, after the man pled guilty to       received disability benefits under his own
theft of Government funds and property,         SSN, while working as a truck driver under
a U.S. District Court judge sentenced him       the SSNs of his wife, and later, his brother-in-
to 8 months in prison followed by 3 years       law. His employer and his family members
of supervised release. In addition, the         knowingly allowed him to work under their
judge ordered the man to pay restitution        SSNs to conceal his earnings and continue
of $174,124 to SSA.                             to receive monthly benefits from SSA.
                                                In August 2012, after the man pled guilty to
                                                theft of Government funds and aggravated
              SSN Misuse                        identity theft, a U.S. District Court judge
                                                sentenced him to 29 months in prison and
                                                3 months’ probation. He was also ordered
Man Concealed Work from SSA Using               to pay restitution of $97,345 to SSA.
Second Identity - Ordered to Pay
Over $240,000 in Restitution
Based on information provided by the
Pennsylvania State Police, our Philadelphia
office investigated a Title II disability
beneficiary for concealing his work activity.
The man, identified by facial recognition
software, possessed two Pennsylvania
driver’s licenses in two different names.
From October 1995 to July 2010, the man
used the second identity to conceal his
employment from SSA.
In April 2012, after the man pled guilty to
theft of Government funds, a U.S. District
Court judge sentenced him to 18 months in
prison and 5 years’ probation; and ordered
him to pay restitution of $241,119 to SSA.




28                                                           April 1, 2012 - September 30, 2012
                                                               Semiannual Report to Congress




Boston Woman Harbored a Notorious                Woman Fakes Pregnancy in Child
Mobster - One of the FBI’s 10 Most               Adoption Scheme
Wanted Criminals
                                                 Based on a referral from the Overland Park,
Based on an FBI request for assistance, our      Kansas Police Department, our Kansas
Boston office investigated a woman for           City, Missouri office investigated a woman
committing identity fraud and identity theft     involved in a child adoption scheme.
while harboring a fugitive, a notorious South    Between 2009 and 2011, the woman
Boston mobster listed on the FBI’s 10 Most       defrauded numerous prospective adoptive
Wanted List. For approximately 16 years,         parents by posing as a pregnant woman
the woman conspired with the mobster to          who was willing to allow the adoption of
elude capture. The investigation revealed        her unborn child. The woman asked the
that the woman fraudulently created and          prospective parents for rent money, medical
used alias identities for herself and the        expense money, and gifts. At the direction
mobster while evading authorities.               of the Department of Social Services, the
                                                 prospective parent requested the woman's
On June 12, 2012, after the woman pled
                                                 SSN; however, to conceal her identity, the
guilty to conspiracy to harbor a fugitive,
                                                 woman provided her son's SSN.
identity fraud, and conspiracy to commit
identity fraud, a U.S. District Court judge      On May 3, 2012, after the woman pled guilty
sentenced her to 96 months in prison and 3       to aggravated identity theft, a U.S. District
years’ supervised release; and ordered her       Court judge sentenced her to 7 years and
to pay a $150,000 fine.                          3 months in prison and 3 years’ supervised
                                                 release; and ordered her to pay restitution
The U.S. Attorney’s Office did not charge
                                                 of $107,697 to the victims of the adoption
the mobster with identity theft or SSN misuse
                                                 scam.
crimes, as he was facing trial for 19 murders,
racketeering charges, and various weapons
charges.




April 1, 2012 - September 30, 2012                                                         29
Semiannual Report to Congress




Cooperative Disability                            and among the top deer hunters in the
Investigations Program                            world. His social media page revealed that
                                                  he was a deer-hunting contestant. The
The CDI program continues to be one of our        contest later aired on a nationally known
most successful joint initiatives, contributing   cable channel.
to the integrity of SSA’s State disability
                                                  SSA ceased the Title II disability benefits.
programs. CDI is a joint effort of the OIG,
SSA, State Disability Determination Services
(DDS), and State/local law enforcement
personnel. Established in 1998 with units in      Man Uses Multiple Identities to Fake
just five states, the CDI program now has         His Medical Condition
25 units in 22 states. The units work to obtain   The Seattle, Washington CDI Unit investigated
sufficient evidence to identify and resolve       a 57-year-old man receiving SSI disability
issues of fraud and abuse related to initial      benefits for mental retardation, and his wife
and continuing disability claims.                 who was his representative payee. The
The following CDI case summaries highlight        investigation found evidence that the man
major investigations we conducted during          had a driver’s license, that he owned and
this reporting period that enhanced SSA           operated several businesses buying and
program integrity and the reliability of SSA’s    selling vehicles, and that he entered into
operations.                                       multiple real estate transactions.
                                                  For over 30 years, the couple used multiple
                                                  false identities to fake the man’s medical
               CDI Cases                          condition. The woman certified to SSA that
                                                  the man only performed basic activities,
                                                  that he needed fulltime assistance, and that
Bull Rider Fakes Disability                       he generally spent his days watching TV.
The Oklahoma City CDI Unit investigated a         After the man and his wife both pled guilty
42-year-old man who was receiving disability      to conspiracy to defraud the United States,
benefits for the loss of use of his right arm,    a U.S. District Court judge sentenced them
neurological damage, back surgeries, and          to 27 months and 37 months in prison,
depression. A private citizen alleged that        respectively, 3 years’ supervised release,
the man judged rodeos, rode bulls, hunted         and ordered them to pay restitution of
deer, acted as a guide on hunting and             $338,128 to SSA.
fishing trips, partnered on raising bucking
bulls, and operated bullfighting and bull
riding schools.                                   Woman Conceals Ownership of
Our CDI Unit's investigation uncovered social
                                                  Restaurant
media sites and a national deer-hunting           Acting on information provided to the
website concerning information about the          Lexington, Kentucky SSA office by an
man. The deer-hunting website indicated           anonymous complainant, our Lexington
that the man was the owner/operator, and          CDI Unit investigated a 47-year-old woman
creator of the website; in addition, he was a     receiving SSI disability benefits due to a
professional hunter, bull rider, rodeo judge,     stroke and heart attack. The complainant


30                                                             April 1, 2012 - September 30, 2012
                                                               Semiannual Report to Congress




alleged that the woman concealed her            Denver Man Conceals Involvement
work activity, business ownership, and true     in Band
living arrangements in order to receive
benefits. A magazine article, in which the      The Denver CDI Unit investigated a
woman was interviewed regarding her             42-year-old man who applied for SSA and
ownership and operation of a restaurant,        SSI disability benefits due to paranoia,
accompanied the allegation.                     post-traumatic stress disorder, severe
                                                depression resulting from a traumatic
After observing the woman at her                brain injury, social anxiety disorder, acute
restaurant, where she was seen waiting on       anxiety, anger, blindness in the right eye
patrons, an investigator asked the woman        (artificial/prosthesis), emotional instability
about the restaurant. The woman stated          and immaturity, acute teeth grinding, sleep
the restaurant had been in operation for        disorder, and back problems. The DDS
40 years, and she and her husband have          referred this case because of suspected
owned the restaurant for the past 8 years.      malingering, inconsistent statements, and
Additional investigation revealed the           lack of medical evidence.
woman concealed property, vehicles, her
husband’s presence in the household, and        The investigation revealed the man had
business ownership when she applied for SSI     several social media accounts. One
benefits. She also failed to report a medical   account referenced his membership in
malpractice settlement for $356,483.            several different bands, and contained
                                                an interview by a web blogger. During the
The Lexington SSA office determined the         interview, the man mentioned his initial start
woman was never eligible for benefits due       in music, the accident where he lost his eye,
to excess resources and ceased her SSI          his activities in the music world, and supplied
benefits.                                       links to his bands and personal sites.
On August 16, 2012, after the woman pled        During an interview with CDI investigators,
guilty to SSI fraud, embezzling SSA funds       the man said that his music was very popular
and false statement to receive Medicaid         in Europe and explained that he was
benefits, a U.S. District Court judge           associated with an online radio station, had
sentenced her to 6 months’ imprisonment         over one million listeners, and that he was
and 3 years’ supervised release. In addition,   a part of four different bands that produce
the judge ordered her to pay restitution of     their music from their home studios.
$40,486 to SSA and $85,149 to the Kentucky
State Treasury Medicaid Program.                The Denver DDS denied the man’s
                                                application for SSA and SSI disability benefits.




April 1, 2012 - September 30, 2012                                                           31
Semiannual Report to Congress




Man Represents Himself as Catatonic
- Works at Liquor Store
The Phoenix CDI Unit investigated a 47-year-
old man who applied for SSA and SSI
disability benefits due to depression, post-
traumatic stress disorder, and neck and
knee injuries. The North Phoenix, Arizona SSA
office referred this case due to the man’s
behavior during his disability interview.
The man presented himself as catatonic
during his disability interview. A community
advocate, who was present to translate for
the man, stated that due to his condition,
the man would not be able to answer any
questions. At the interview, attempts to elicit
even a date of birth from the man were
unsuccessful. During the interview, the SSA
representative left for a short period, but
another SSA employee observed the man
talking and interacting with his wife and the
community advocate with no difficulty. The
man returned to his previous state of staring
and not participating in the interview upon
the SSA representative’s return.
While conducting surveillance, a CDI Unit
investigator observed the man driving his
vehicle to a liquor store. Later, the man was
seen tending to customers at the store.
The Arizona DDS denied the man’s
application for SSA and SSI disability benefits.




32                                                 April 1, 2012 - September 30, 2012
                                                                                                                                      Semiannual Report to Congress




The following table highlights the successes of the CDI program, which yielded more than
$166 million in SSA program savings during this reporting period:

                       Cooperative Disability Investigations Program Results
                           April 1, 2012 through September 30, 2012
                                                         Allegations                 Confirmed                                                            Non-SSA
                      State                                                                                          SSA Savings1
                                                          Received                  Fraud Cases                                                           Savings2

  Arizona                                                       144                          65                                  5,579,839                     4,135,725
  California3                                                   544                         195                                14,118,649                    13,955,436
  Colorado                                                      111                          83                                  7,480,375                     4,685,730
  Florida                                                       127                          72                                  6,108,885                     3,994,245
  Georgia                                                       167                          84                                  6,761,015                     4,309,419
  Illinois                                                      120                          52                                  3,832,570                     2,377,118
  Kentucky                                                      105                          52                                  3,821,249                     2,504,504
  Louisiana                                                     136                          83                                  7,066,502                     4,570,965
  Massachusetts                                                 142                          86                                  7,829,704                     6,346,021
  Mississippi                                                     46                          8                                     540,755                       313,854
  Missouri      4
                                                                270                         152                                12,436,326                      8,538,457
  New Jersey                                                      89                         14                                  1,261,750                        751,423
  New York                                                        67                         36                                  3,199,700                     2,800,590
  Ohio                                                          377                         157                                12,597,204                      9,877,092
  Oklahoma                                                      132                          58                                  4,931,868                     2,379,540
  Oregon                                                        163                         133                                11,657,007                      8,381,118
  South Carolina                                                192                         141                                11,591,898                      7,600,005
  Tennessee                                                       80                         70                                  6,308,750                     4,106,900
  Texas     5
                                                                311                         179                                15,099,872                    10,700,976
  Utah                                                          187                          76                                  6,492,608                     3,902,498
  Virginia                                                      135                          77                                  6,800,937                     5,452,868
  Washington                                                    159                         151                                10,485,397                      7,361,821
  Total (10/1/11 – 3/31/12)                                    3,528                      2,075                             173,564,470                    115,584,044
  Total (4/1/12 – 9/30/12)                                     3,804                      2,024                             166,002,860                    119,046,305
  FY 2012                                                      7,332                      4,099                             339,567,330                   234,630,349
  1 SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI investigations.  When a CDI Investigation supports the
    cessation /termination of an in-pay case, SSA program savings are calculated using a formula that takes into account the average number of years that SSA has

    determined that a person remains on its rolls, as well as the total percentage of CDRs that resulted in a suspension, termination, or reduction in benefits due to CDI

    investigations.

  2 Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result of a CDI investigation, using estimated or

    actual benefit amounts documented by the responsible agency.

  3 California has two units, one in Los Angeles, and the other in Oakland.

  4 Missouri has two units, one in Kansas City and the other in St. Louis.

  5 Texas has two units, one in Dallas, and the other in Houston.



April 1, 2012 - September 30, 2012                                                                                                                                            33
Semiannual Report to Congress




Value Attained Through Legal Initiatives

Section 1129 Enforcement
OCIG’s CMP program targeting violations of Section 1129 of the Act maximizes available
resources and creates a positive return on investment. Section 1129 authorizes a CMP against
those who make false statements or representations in connection with obtaining or retaining
benefits or payments under Titles II, VIII, or XVI of the Act. In addition, CMPs may be imposed to
penalize representative payees for wrongful conversion of payments, or to penalize individuals
who knowingly withhold a material fact from SSA. After consultation with the DOJ, we are
authorized to impose penalties of up to $5,000 for each false statement, representation,
conversion, or omission. A person may also be subject to an assessment, in lieu of damages,
of up to twice the amount of any resulting overpayment. The following table and cases
highlight the value achieved through our Section 1129 efforts for this reporting period:




                                       SECTION 1129

                                10/1/11 – 3/31/12    4/1/12 – 9/30/12           FY 2012


     Cases Received                   1003                  999                   2,002


     Cases Initiated                  104                   138                    242


     Cases Closed                     941                   820                   1761


     Penalties and
                                   $4,615,334           $5,485,895            $10,101,229
     Assessments Imposed


     Number of Hearings
                                       18                   15                     33
     Requested


     Cases Successfully
     Resolved (settled case,
                                       96                   92                     188
     favorable judgment, or
     penalty imposed)




34                                                                April 1, 2012 - September 30, 2012
                                                            Semiannual Report to Congress




Man Forged Signature On Deceased              Oregon Woman Conceals Marriage
Aunt’s Social Security Check                  to Continue Receipt of Title II Benefits

A deceased beneficiary’s nephew, who          In order to continue receiving Retirement
resided with his aunt at the time of her      Insurance Benefits (RIB) based on her first
death, continued to receive and use her       marriage, an Oregon woman concealed
Social Security retirement benefits after     her second marriage from SSA. Due to
her death. Each month, he negotiated his      her failure to report this marriage, SSA paid
aunt’s Social Security check by forging her   the woman RIB until November 2011, when
signature. By cashing her checks for three    an OIG investigation uncovered her new
years, he falsely represented that his aunt   marriage. OCIG negotiated a settlement in
was alive and entitled to those benefits.     which the woman paid a $45,113 penalty.
OCIG imposed a $50,000 penalty and an
assessment of $36,055, for a total recovery
of $86,055.                                   Oregon Mother Fails to Report
                                              Husband’s Income
New Hampshire Engineer Concealed              An Oregon woman applied for and began
Work Activity                                 receiving SSI for her minor child in 2005.
                                              In 2006, her husband began working for
A New Hampshire engineer applied for          various construction companies, making
Title II DI benefits and failed to report     in excess of $100,000 per year. Due to
that he returned to work only three days      her failure to report this information, the
after receiving the award notice from         woman improperly received $38,477 on
SSA. Although the subject had numerous        behalf of her son. OCIG negotiated a
opportunities to report his return to work,   settlement in which the woman agreed to
he withheld this information for more than    pay a $15,000 penalty and an assessment
three years.    OCIG imposed a $15,000        of $38,477, for a total recovery of $53,477.
penalty and an assessment of $105,751, for
a total recovery of $120,751.
                                              Virginia Man Fails to Report His Return
                                              to Work as a Tree Removal Surveyor

                                              A Virginia DI beneficiary failed to report
                                              his return to work as a surveyor for a tree
                                              removal company. As a result, he and
                                              his three children received over $94,000 in
                                              payments to which they were not entitled.
                                              OCIG negotiated a settlement whereby
                                              the man agreed to pay a $10,000 penalty,
                                              an assessment of $96,000, for a total
                                              recovery of $106,000.




April 1, 2012 - September 30, 2012                                                      35
Semiannual Report to Congress




Seattle Man Failed to Report Owning               Texas Postal Worker Fails to Report his
and Operating Several Businesses                  Return to Work
A Seattle man concealed the fact that he          A Texas man worked for the U.S. Postal
owned and operated several businesses,            Service until February 2006, at which time
including a gravel-hauling business. As a         he applied for and began to receive DI
result, he and his son improperly received        benefits.     However, he failed to report
more than $35,000 in DI benefits. OCIG            his return to work at the U.S. Postal Service
negotiated a settlement in which the man          later in 2006. As a result, he and his family
agreed to pay a $60,000 CMP. He made              improperly received more than $91,000
an initial payment of $35,288.                    in payments. OCIG imposed a $40,000
                                                  penalty and an assessment of $91,214, for
                                                  a total recovery of $131,214.
California Woman Fails to Report
Marriage While Receiving SSI

A California woman failed to report her
marriage, and denied being married when
SSA asked directly. As a result, she improperly
received over $75,000 in SSI benefits. The
woman’s husband and daughter confirmed
the marriage and living arrangements. A
$124,646 CMP was imposed by default after
the woman failed to request a hearing.



Ohio Man Received $90 Thousand in
DI Benefits While Working at a Pizzeria

An Ohio man failed to report his work activity
to SSA while he was receiving DIB. OIG’s
investigation revealed that the man worked
at a pizza restaurant between 10/2008
and 03/2011, resulting in an overpayment
of $93,731. A penalty of $30,000 and an
assessment of $93,731, for a total recovery
of $123,731, was imposed by default after
the subject failed to request a hearing.




36                                                            April 1, 2012 - September 30, 2012
                                                                 Semiannual Report to Congress




PEOPLE                                            Human Resource Planning
                                                  and Management
The third goal of the OIG Strategic Plan
                                                  We actively pursue and work to retain the
is enhancing the work experience of our
                                                  best possible employees. First, our staffing
employees. The collective effort of our
                                                  plan forecasts employee departures based
employees continues to be the driving force
                                                  on historical trends and human resource
behind our organization’s success in meeting
                                                  data, which allows us to establish optimal
its mission. We provide an encouraging and
                                                  timeframes for recruiting new employees.
rewarding work experience with the goal
                                                  Moreover, OIG managers monitor staffing
of retaining these exceptional individuals.
                                                  to ensure that vacant positions are filled
OIG leadership fosters an environment
                                                  promptly, ensuring that OIG components
where employees can realize their potential
                                                  have the ability to fulfill their respective
through training and developmental
                                                  missions.
programs. OIG components convene
training sessions to inform their employees       Our human resource specialists and recruiters
about new procedures at various levels            participate in national and virtual career fairs
of our organization. In addition, the OIG         in our ongoing effort to attract the best and
Organizational Health Committee conducts          brightest talent to OIG. Ongoing evaluation
an annual assessment of employee                  and updating of our recruitment displays
satisfaction levels and addresses employee        and brochures continue to enhance our
concerns.                                         outreach efforts. These events enable us to
                                                  actively recruit underrepresented groups in
                                                  the labor market, enabling us to maintain
Budget                                            a truly diverse workforce. OIG hired ten
                                                  employees during the second half of FY
For FY 2012, our annual appropriation is          2012. Of these 10, six individuals (60 percent
$102.2 million, which supports an estimated       of new hires) were from minority groups.
end-of year staffing level of 570. The salaries
and benefits of employees account for 87          Once we identify the best candidates,
percent of overall spending. The remaining        we utilize a structured interview process
13 percent is used for necessary expenses         to equitably assess candidates’ skills and
such as travel, training, communications,         qualifications. This process has been
reimbursable work authorizations, and             instrumental in predicting the future success
general procurements, as well as to provide       of new employees.
for basic infrastructure needs such as rent       OIG recently announced a series of internal
and interagency service agreements. The           professional developmental assignment
FY 2012 budget supports our efforts to meet       opportunities that supplement OIG’s
and exceed the expectations set forth in          formal Leadership Development Program.
the OIG Strategic Plan for Fiscal Years 2011      The OIG Professional Development Series
– 2015. The goals and accomplishments             offers competitive headquarters and field
measured in the Strategic Plan are also           assignments of 120 days or longer and
published in the Annual Congressional             provides qualified employees with the
Budget Justification.                             opportunity to acquire new skills and talents.



April 1, 2012 - September 30, 2012                                                             37
Semiannual Report to Congress




Our succession planning and knowledge-               business intelligence software to provide
transfer strategies focus on creating a culture      enhanced management information to
to ensure smart recruitment, tailored internal       OIG Executives and managers. Once these
training, effective leadership transition efforts,   upgrades have been completed, we will
and reciprocal developmental programs.               continue to automate our existing business
In addition to participating with agency             processes in an effort to decrease costs and
developmental programs, OIG continues to             increase efficiency.
expand current developmental programs to
                                                     During this reporting period, we continued
utilize knowledge transfer practices, bridge
                                                     to expand our telework program, tripling
knowledge gaps, and drive innovation for
                                                     the number of participants with plans for
organizational performance improvement.
                                                     additional expansion by the end of the year.
Finally, the OIG Organizational Health               We also made improvements to our telework
Committee annually assesses employee                 infrastructure for increased capacity and
satisfaction levels and addresses employee           improved performance. The technologies
concerns. SSA and the Office of Personnel            we implemented allow for a productive
Management (OPM) use a baseline of 65                remote workforce without sacrificing the
percent of employees responding positively           security of sensitive information. These
(e.g., strongly agree or agree) to measure           steps align the OIG with the goals and
the statistical strength of an organization.         requirements of the Telework Enhancement
In the FY 2012 survey, 12 of 13 questions            Act of 2010.
scored above 65 percent demonstrating
                                                     Finally, our IT staff analyzes industry trends to
that the health of our organization is strong.
                                                     find new technologies that may enhance
Question 12 of this survey asks, “Considering
                                                     our business processes. During this reporting
everything, how satisfied are you with your
                                                     period, we have continued to expand the
job?” Eighty-two percent of our employees
                                                     use of virtual technologies and have begun
indicated that they are either satisfied or very
                                                     to pilot virtual desktop infrastructure for
satisfied with their job, which is significantly
                                                     both internal and remote use, to reduce
higher than the 65 percent OPM baseline.
                                                     hardware and deployment costs, and
                                                     enhance data security. We have also utilized
                                                     virtualization to decrease the number of
Information Technology                               physical servers in use, which has reduced
During this reporting period, OIG Information        power consumption and increased system
Technology (IT) specialists continued                uptime. OIG IT specialists continue to meet
working to update and improve the                    the challenge of providing a variety of IT
OIG systems environment. This includes               support services for more than 70 OIG offices
migration to a new infrastructure platform           throughout the country.
to provide redundancy and failover for
OIG applications and data including our
National Investigative Case Management
System as well as an upgrade of our Business
Process Management software, which
provides workflows and approval chains
for automated OIG business processes. We
also continued the effort to implement

38                                                                April 1, 2012 - September 30, 2012
                                                               Semiannual Report to Congress




Outreach Efforts                                    Resources to combat fraud in that
                                                    State agency
We are always seeking new ways to reach
out to the wider Federal community as            •	 In September 2012, an agent from our
well as to public citizens. In a variety of         Los Angeles Field Division attended the
venues, we share our mission of promoting           quarterly meeting of the Los Angeles
integrity and excellence in Social Security         (LA) County Residential Protocols
programs and operations. These occasions            Taskforce.    This taskforce meets to
are important opportunities to exchange             discuss representative payee misuse,
information and forge partnerships. They also       elder abuse, and other related welfare
give us the chance to educate and inspire           fraud issues. Members include the LA
                                                    County Fire Department, LA County
public confidence in Federal programs. The
                                                    Department of Public Social Services,
following activities took place during the
                                                    Adult Protective Services, California
second half of FY 2012:
                                                    Department of Health Care Services,
•	 On June 22, 2012, the Audit Director, Audit      and the LA County District Attorney.
   Manager, Special Agent in Charge, and
   the Special Agent from the CDI unit gave      •	 In April 2012, an agent from our Chicago
   a presentation to SSA's Office of Quality        Field Division, in conjunction with the
   Performance employees in Boston, MA.             U.S. Attorney’s Office for the Western
   The presentation covered the OIG's               District of Michigan, the National White
   role in identifying and preventing fraud,        Collar Crime Center, and the Wyoming
   waste, and abuse in SSA's programs.              (Michigan)        Police    Department,
                                                    instructed the Identifying and Seizing
•	 A program analyst in the Boston Office of
   Audit co-managed an effort to collect            Electronic Evidence training course
   food donations for a Massachusetts               held in Wyoming, Michigan.
   town's social service center's food
   pantry. For example, 3 hours' effort at       •	 In May 2012, the Denver CDI Unit
   a local super market one day per week            Team Leader conducted a CDI unit
   for 9 weeks resulted in an average of 2.7        training session at the Denver SSA
   items of food collected for every minute         Regional Office for the Office of Quality
   spent asking for donations.                      Performance. In attendance were 15
                                                    SSA employees along with two new
•	 In August,the Deputy Assistant Inspector         DDS examiners.
   General for Audit, spoke at an improper
   payments panel sponsored by Computer          •	 In April 2012, the Kansas City, Missouri
   Weekly.                                          CDI unit gave a presentation to about
•	 In April 2012, the Oklahoma City CDI             40 health care professionals at Swope
   Unit gave a presentation to Oklahoma             Health Services in Kansas City, Missouri.
   State Representatives Jason Murphey              The presentation included information
   and Jason Nelson and his staff. Mr.              about the CDI program, how to report
   Murphey’s visit was for informational            suspected fraud cases to CDI, the
   purposes concerning the function of              medical release signed by all Title II and
   the Oklahoma DDS and the CDI unit.               SSI disability claimants, and common
   Mr. Nelson expressed an interest in              disability scams.
   starting an investigative unit within the
   Oklahoma Department of Human

April 1, 2012 - September 30, 2012                                                         39
Semiannual Report to Congress




•	 In June 2012, agents from our                 The post generated widespread media
   Washington, D.C. and Baltimore offices        coverage, as entities like the Associated
   participated in the Law Enforcement           Press, CNN, and the Huffington Post all
   Torch Run for the Special Olympics.           reported on the concerns surrounding the
                                                 ammunition procurement and the OIG’s
•	 In April 2012, a Resident Agent-in-           prompt public response to the concerns
   Charge in our Atlanta Field Division          through a public blog. The post totaled
   traveled to Biloxi, Mississippi to speak at   more than 17,500 views and about 230
   the 2012 Spring Prosecutors Conference        reader comments in only a few weeks.
   for Mississippi prosecutors.
                                                 Other social media outreach activities
                                                 during this reporting period included:
Social Media Outreach                            •	 We launched the OIG Facebook
                                                    (www.facebook.com/oigssa)         and
During this reporting period, we launched           Twitter   (@TheSSAOIG)        accounts,
the “Beyond the Numbers” blog on the OIG            which we have regularly updated
website       (http://oig.ssa.gov/newsroom/         with OIG happenings and activities,
blog), to relay our mission and message and         audit reports, investigation summaries,
to connect with the public, the Congress,           newsreleases, and other reviews.
and the media.
                                                 •	 We launched the OIG YouTube channel
We produced and published several well-             (www.youtube.com/TheSSAOIG ),
read posts on topics such as the work of            where we have uploaded a collection
our Special Agents, identity theft, and             of OIG-related videos, including a
penalties for Social Security fraud. Our            new, OIG-produced public service
most-read and most-shared post, though,             announcement, “Protecting Personal
was a response to concerns over our                 Information.”
procurement of ammunition for our Special
Agents’ duty weapons.

The post, published August 16, explained
that OIG’s Special Agents are responsible
for investigating violations of the laws that
govern SSA’s programs. These investigators
have full law enforcement authority, they
use traditional investigative techniques,
and they are armed when on official duty.

We further explained our Special Agents
use the ammunition during mandatory
firearms qualifications and other training
sessions, to ensure agent and public safety.
Our Special Agents need to be armed and
trained properly; at times, they respond
to threats against Social Security offices,
employees, and customers.


40                                                          April 1, 2012 - September 30, 2012
                                                            Semiannual Report to Congress




Improving    Two-Way                           Finally, we have created a survey to help
Communication                                  us ensure that this Semiannual Report to
                                               Congress is providing the information you
                                               need in a user-friendly format. Please let
During this reporting period, we created       us know what you think by taking our brief
a series of surveys to elicit feedback from    survey located at:
our stakeholders in an effort to improve our   http://oig.ssa.gov/survey
products and services. First, we surveyed
congressional member offices that sent
us constituent-based inquiries during FY
2012. We work to provide a thorough
response to such requests within 21 days.
Throughout the year, we responded to 58
such inquiries, and we solicited feedback
from 30 member offices.

According to the survey responses:

•	 71 percent said OIG’s response
   adequately addressed the constituent’s
   concerns.

•	 88 percent approved of the quality of
   the response.

•	 92 percent approved of the timeliness
   of the response.

We also created a feedback survey
to gauge the overall response to our
redesigned Internet site.    We solicited
responses from site visitors and from
subscribers to OIG e-mail updates.

According to the responses:

•	 86 percent said they were able to locate
   the information they were searching for.

•	 72 percent said it was very easy or
   extremely easy to find what they were
   searching for.

•	 Over 93 percent said they found the site
   information useful.



April 1, 2012 - September 30, 2012                                                    41
Semiannual Report to Congress




                                A Special Thank You

                                The diligent work,
                            outstanding efforts, and
                             many contributions of
                            our entire OIG staff make
                             the accomplishments
                                highlighted in this
                             Semiannual Report to
                               Congress possible.

                              We would like to thank
                             them for their dedicated
                            spirit and many successes.




42                                                      April 1, 2012 - September 30, 2012
Reporting Requirements
         and
     Appendices
REPORTING REQUIREMENTS
This report meets the requirements of the Inspector General Act of 1978, as amended, and
includes information mandated by Congress.



        Section                               Requirement                                Page(s)

      Section 4(a)(2)    Review of legislation and regulations                           Appendix I


      Section 5(a)(1)    Significant problems, abuses, and deficiencies                     6-36


      Section 5(a)(2)    Recommendations with respect to significant problems,              6-9
                         abuses, and deficiencies                                          22-25

      Section 5(a)(3)    Recommendations described in previous Semiannual
                                                                                       Appendix F&G
                         Reports on which corrective actions are incomplete

      Section 5(a)(4)    Matters referred to prospective authorities and the               13-18
                         prosecutions and convictions that have resulted                   27-36

     Section 5(a)(5) &
                         Summary of instances where information was refused                 N/A
      Section 6(b)(2)


      Section 5(a)(6)    List of audits                                                 Appendix B


                                                                                            6-9
      Section 5(a)(7)    Summary of particularly significant reports
                                                                                           22-25

                         Table showing the total number of audit reports and total
      Section 5(a)(8)                                                                   Appendix B
                         dollar value of questioned costs

                         Table showing the total number of audit reports and total
      Section 5(a)(9)                                                                   Appendix B
                         dollar value of funds put to better use

                         Audit recommendations more than 6 months old for which
     Section 5(a)(10)                                                                   Appendix B
                         no management decision has been made

                         Significant management decisions that were revised during
     Section 5(a)(11)                                                                       N/A
                         the reporting period

                         Significant management decisions with which the Inspector
     Section 5(a)(12)                                                                   Appendix D
                         General disagrees




44                                                                     April 1, 2012 - September 30, 2012
APPENDIX A: Resolving Audit Recommendations
The following chart summarizes SSA’s responses to our recommendations for the recovery or
redirection of questioned and unsupported costs. Questioned costs are those costs that are
challenged because of a violation of law, regulation, etc. Unsupported costs are those costs that
are questioned because they are not justified by adequate documentation. This information
is provided in accordance with P.L. 96-304 (the Supplemental Appropriations and Recession
Act of 1980) and the Inspector General Act of 1978, as amended.


                       Reports with Questioned Costs for the Reporting Period
                                       April 1, 2012 - September 30, 2012
                                                                               Value
                                                                Number                        Value Unsupported
                                                                             Questioned
      A.	For which no management decision had
         been made by the commencement of the                      20a        $785,372,997b              $64,177
         reporting period.
      B.	Which were issued during the reporting
                                                                   14c,d       $133,087,369           $2,072,679
         period.


          	 Subtotal (A + B)                                        34         $918,458,366           $2,136,856


      	Less:


      C.	For which a management decision was
                                                                    17         $841,452,169           $2,066,245
         made during the reporting period.


      	 i.	 Dollar value of disallowed costs.                       13         $832,321,276           $2,066,245


      	 ii.	 Dollar value of costs not disallowed.                      4        $9,130,893                    $0

      D.	For which no management decision had
         been made by the end of the reporting                     18c          $77,006,197              $70,611
         period.

a.
      Amount updated to reflect report omitted from prior submission.
­b.
      Amount updated to reflect omitted report value and current value of cases worked.
c.
      See Reports with Questioned Costs in Appendix B of this report.
d
      Total number of reports do not agree because one report has two monetary recommendations; one recommendation is
       reflected in section Cii and one recommendation is reflected in section D.




       April 1, 2012 - September 30, 2012                                                                           45
The following chart summarizes SSA’s response to our recommendations that funds be put to
better use through cost avoidances, budget savings, etc.


                     Reports with Recommendations that Funds Be Put to Better Use
                         Reporting Period April 1, 2012 - September 30, 2012

                                                                                       Number        Dollar Value
 A. For which no management decision had been made by the
                                                                                           7         $2,275,271,154a
   commencement of the reporting period.
                                                                                                      $2,685,050,083
 B.	 Which were issued during the reporting period.                                       12b,c


 		          Subtotal (A + B)                                                              19         $4,960,321,237


           	 Less:

 C.	 For which a management decision was made during
     the reporting period.
      i. Dollar value of recommendations that were agreed to
                                                                                           9          $1,500,945,388
         by management.
                                                                                                      $1,500,945,388
           (a) Based on proposed management action.                                        9


           (b) Based on proposed legislative action.                                       0                      $0


      ii.	 Dollar value of costs not agreed to by management.                              3            $137,431,757

                                                                                                      $1,638,377,145
 		          Subtotal (i + ii)                                                             12

 D.	For which no management decision had been made by the
                                                                                           8b         $3,321,944,092
    end of the reporting period.


     a.
          Amount updated to reflect current value of cases worked.
     b.
          See Reports with Funds Put to Better Use in Appendix B of this report.
	c.
      Total number of reports do not agree because one report has three monetary recommendations; one
     recommendation is reflected in section Ci and two recommendations are combined and reflected in section D.




46                                                                                 April 1, 2012 - September 30, 2012
APPENDIX B: Reports Issued
                           Reports with Non-Monetary Findings
                          October 1, 2011 – September 30, 2012
Audit Number                                 Report                                 Issue Date

                Ahtna Engineering Services, LLC, Contract Number
A-07-11-11140                                                                       10/4/2011
                SS00-07-60063

                MAXIMUS' Incurred Cost Proposals for Fiscal Years 2004 and 2005
A-15-11-21129                                                                       10/11/2011
                (Limited Distribution)

                Health Information Technology Provided by Beth Israel
A-01-11-11117                                                                       10/13/2011
                Deaconess Medical Center and MedVirginia

                Training of New Administrative Law Judges at the Office of
A-12-11-11126                                                                       10/13/2011
                Disability Adjudication and Review

                Recovery Act Exchange Contract with Lovelace Clinic
A-15-11-11157                                                                       10/13/2011
                Foundation - Contract SS00-10-60030

A-14-11-11115 The Social Security Administration's eAuthentication Process          10/14/2011

                Controls for the Annual Wage Reporting Process (Limited
A-03-11-21162                                                                       10/18/2011
                Distribution)
                The Social Security Administration’s Agency-wide Support
A-14-10-11004                                                                       10/28/2011
                Services Contract with Lockheed Martin

A-14-11-11112 The Social Security Administration's Electronic Services              10/28/2011

              Congressional Response Report: The Social Security
A-15-11-01117 Administration's Limitation on Administrative Expenses                10/31/2011
              Appropriation's Transfer Authority

              Fiscal Year 2011 Inspector General Statement on the Social
A-02-12-11231 Security Administration's Major Management and Performance            11/4/2011
              Challenges

              Follow-up: Physical Security at the Office of Disability
A-12-11-21190 Adjudication and Review's Headquarters Building (Limited              11/4/2011
              Distribution)

A-15-11-11177 Fiscal Year 2011 Financial Statement Audit Oversight                  11/7/2011

              Fiscal Year 2011 Evaluation of the Social Security Administration's
A-14-11-01134 Compliance with the Federal Information Security Management           11/14/2011
              Act of 2002

                Follow-up: The Social Security Administration's Program for
A-08-10-10141                                                                       11/23/2011
                Issuing Replacement Social Security Cards to Prisoners

                Collection, Use, and Disclosure of Social Security Numbers in
A-08-11-11181                                                                       11/28/2011
                States' Newborn Screening Programs

                Controls over Social Security Internet Benefit Applications
A-09-11-21165                                                                       12/7/2011
                (Limited Distribution)

A-15-10-20151 The Social Security Administration Cost Allocation Process            12/7/2011

A-04-11-11105 Controls for Issuing Social Security Number Printouts                 12/13/2011



 April 1, 2012 - September 30, 2012                                                              47
                           Reports with Non-Monetary Findings
                         October 1, 2011 – September 30, 2012
Audit Number                                 Report                                      Issue Date

                State Disability Determination Services' Employee and
A-15-11-21180                                                                            12/21/2011
                Contractor Suitability Program

              Management Advisory Report: Single Audit of the
A-77-12-00001 Commonwealth of Massachusetts for the Fiscal Year Ended                    12/21/2011
              June 30, 2010

                The Social Security Administration's Reporting of High-dollar
A-15-11-01140                                                                            12/30/2011
                Overpayments Under Executive Order 13520 in Fiscal Year 2011

                Management Advisory Report: Single Audit of the State of
A-77-12-00003                                                                            1/27/2012
                Indiana for the Fiscal Year Ended June 30, 2010

A-15-11-11183 Performance Indicator Audit: Customer Service                               2/7/2012

              Internal Control Review over the Processing of Social Security
A-15-11-11176 Number Cards at the Second Support Center (Limited                          2/9/2012
              Distribution)

                Congressional Response Report: Oversight of Administrative
A-12-11-01138                                                                            2/14/2012
                Law Judge Workload Trends

                Summary of Inspector General Reports Related to Executive
A-01-12-21243                                                                            2/16/2012
                Order 13520 on Improper Payments

                The Social Security Administration's Implementation of the Open
A-02-10-20102                                                                            2/17/2012
                Government Directive

A-15-11-11197 Performance Indicator Audit: Improper Payments                              3/1/2012

                Management Advisory Report: Single Audit of the State of
A-77-12-00006                                                                             3/6/2012
                Wisconsin for the Fiscal Year Ended June 30, 2010

                Congressional Response Report: Oversight of the Year-end
A-05-12-21254                                                                             3/7/2012
                Hearings Process

                Use of the E-Verify Program by the Social Security
A-03-11-11111                                                                             3/8/2012
                Administration’s Contractors

                Dacotah Foundation, an Organizational Representative Payee
A-06-10-20174                                                                             3/9/2012
                for the Social Security Administration

A-01-11-21169 Training at Offices that Make Disability Determinations                    3/14/2012

              The Social Security Administration's Compliance with the
A-15-12-11244 Improper Payments Elimination and Recovery Act of 2010 in the              3/14/2012
              Fiscal Year 2011 Performance and Accountability Report

                Management Advisory Report: Single Audit of the State of
A-77-12-00005                                                                            3/15/2012
                California for the Fiscal Year Ended June 30, 2010

              Congressional Response Report: The Social Security
A-07-12-21234 Administration’s Review of Administrative Law Judges’                      3/19/2012
              Decisions

A-03-10-11053 Collection of Back-up Withholding Taxes from Vendors                        4/3/2012



48                                                                   April 1, 2012 - September 30, 2012
                           Reports with Non-Monetary Findings
                          October 1, 2011 – September 30, 2012
Audit Number                                 Report                                 Issue Date
                The Role of National Hearing Centers in Reducing the Hearings
A-12-11-11147                                                                        4/3/2012
                Backlog

              Contractors' Reporting of Jobs Created or Retained Using
A-15-12-11214 American Recovery and Reinvestment Act Dollars in Fiscal Year          4/3/2012
              2011

                Management Advisory Report: Single Audit of the State of
A-77-12-00007                                                                        4/3/2012
                Tennessee for the Fiscal Year Ended June 30, 2010

                Administrative Costs Claimed by the North Dakota Disability
A-06-11-11159                                                                        4/9/2012
                Determination Services

                Resolving Issues Identified During the Social Security
A-01-11-11119                                                                       4/26/2012
                Administration's Quality Reviews of Disability Determinations

                Risks Posed by Digital Photocopiers Used in Social Security
A-06-11-11155                                                                       5/17/2012
                Administration Offices
                The Social Security Administration's Software Modernization and
A-14-11-11132                                                                       5/17/2012
                Use of Common Business Oriented Language

A-12-11-11124 Availability and Use of Vocational Experts                            5/30/2012

                Contractor Security of the Social Security Administration's
A-14-11-11106                                                                        6/1/2012
                Homeland Security Presidential Directive 12 Credentials
                Restricted Countries: Controls over Internet Claim Applications
A-05-10-20180                                                                        6/5/2012
                and Payments to Beneficiaries
                Representative Payees' Ability to Monitor the Individual Needs of
A-04-11-11146                                                                       6/12/2012
                a Large Volume of Beneficiaries
              Contingency Plans to Maintain Operations if Delays Occur in the
A-14-12-11237 Construction of the Social Security Administration's New Data         6/12/2012
              Center (Limited Distribution)

                Congressional Response Report: Current and Expanded Use of
A-05-12-21287                                                                       6/18/2012
                Video Hearings

A-15-10-20152 The Social Security Administration Cost Allocation Methodology        6/18/2012

                Northview Village, Inc., An Organizational Representative Payee
A-07-11-01137                                                                       6/21/2012
                for the Social Security Administration

                Title II Deceased Beneficiaries Who Do Not Have Death
A-09-11-21171                                                                        7/9/2012
                Information on the Numident

                Direct Deposit Changes Initiated by the Social Security
A-02-12-21272                                                                       7/10/2012
                Administration’s National 800-Number Staff (Limited Distribution)

              Controls over Old-Age, Survivors and Disability Insurance
A-02-10-10127 Replacement Checks for Beneficiaries Who Double Negotiated            7/18/2012
              Benefit Checks
                Management Advisory Report: Single Audit of the State of New
A-77-12-00008                                                                       7/18/2012
                York for the Fiscal Year Ended March 31, 2010



 April 1, 2012 - September 30, 2012                                                              49
                           Reports with Non-Monetary Findings
                          October 1, 2011 – September 30, 2012
Audit Number                                  Report                                     Issue Date
                The Social Security Administration's Selection Process for Quick
A-15-11-11175                                                                            7/19/2012
                Disability Determinations
                American Recovery and Reinvestment Act of 2009 Funds Used
A-15-11-11199                                                                            7/19/2012
                for Health Information Technology Contracts
                Significance of Administrative Finality in the Social Security
A-08-11-21107                                                                            7/26/2012
                Administration's Programs
                The Social Security Administration's PC Mall Gov, Incorporated,
A-14-11-01133                                                                            7/31/2012
                Contract

                Management Advisory Report: Single Audit of the State of Illinois
A-77-12-00009                                                                            7/31/2012
                for the Fiscal Year Ended June 30, 2010

                The Social Security Administration’s Implementation of the Future
A-14-12-11222                                                                            8/20/2012
                Systems Technology Advisory Panel Recommendations

              Office of Disability Adjudication and Review's Process for
A-08-12-21293 Scheduling Hearings When Cases are in “Ready to Schedule”                  8/21/2012
              Status
                Administrative Costs Claimed by the Virginia Disability
A-03-12-11207                                                                            8/27/2012
                Determination Services
              CESSI, Division of Axiom Resource Management Incorporated,
A-13-12-11249 Indirect Cost Rate Proposals for Fiscal Years 2009 and 2010                 9/5/2012
              (Limited Distribution)
                Management Advisory Report: Single Audit of the State of
A-77-12-00011                                                                             9/7/2012
                Alabama for the Fiscal Year Ended September 30, 2010

              Management Advisory Report: Single Audit of the
A-77-12-00012 Commonwealth of Puerto Rico Department of the Family for the               9/11/2012
              Fiscal Year Ended June 30, 2010

A-06-11-01139 Administrative Payments Vendor File                                        9/14/2012

                Administrative Costs Claimed by the Mississippi Disability
A-08-12-11294                                                                            9/14/2012
                Determination Services

                The Physical Security of the Social Security Administration's
A-14-12-11227                                                                            9/14/2012
                Contractor Owned and Operated Off-site Storage Facility

A-14-12-11226 Cloud Computing at the Social Security Administration                      9/24/2012
              The Social Security Administration's Plan to Reduce Improper
A-15-12-12141 Payments Under Executive Order 13520, as Reported in March                 9/27/2012
              2012




50                                                                   April 1, 2012 - September 30, 2012
                                    Reports with Questioned Costs
                               October 1, 2011 – September 30, 2012

Audit Number     Issue Date                                Report                              Dollar Amount

                                 Accuracy of Title II Survivors Benefit Transactions Greater
A-04-10-10119    10/11/2011      Than $30,000 Processed Through the Manual Adjustment,              $1,861,481
                                 Credit and Award Process System

                                 Administrative Costs Claimed by the Maine Disability
A-01-11-11109    10/12/2011                                                                             $5,857
                                 Determination Services

                                 The Social Security Administration's Recovery Act-funded
A-15-11-11113    10/13/2011      Contract with International Business Machines, Inc.,                   $9,184
                                 Blanket Purchase Agreement SS00-08-40004, Call Order 51

                                 Follow-up: Individuals Receiving Benefits Inappropriately
A-01-10-11008    10/14/2011      Under Multiple Social Security Numbers at the Same                 $2,492,332
                                 Address

                                 Old-Age, Survivors and Disability Insurance Benefits
A-13-10-10143     11/9/2011                                                                       $710,119,660
                                 Affected by State or Local Government Pensions

                                 Old-Age, Survivors and Disability Insurance Benefits
A-09-11-11130    11/21/2011      Withheld Pending Supplemental Security Income Windfall           $283,410,290
                                 Offset

                                 Management Advisory Report: Single Audit of State of
A-77-12-00002   12/21/2011                                                                              $1,470
                                 New Jersey for the Fiscal Year Ended June 30, 2010

                                 Follow-up: Individuals Receiving Benefits Under Multiple
A-01-11-11145     1/13/2012                                                                        $4,119,906*
                                 Social Security Numbers at Different Addresses

                                 Management Advisory Report: Single Audit of the State
A-77-12-00004     2/16/2012                                                                          $191,709
                                 of Arizona for the Fiscal Year Ended June 30, 2010

                                 Supplemental Security Income Recipients Receiving
A-06-10-21066     2/22/2012      Social Security-administered Payments in Excess of                 $5,475,209
                                 Federal Limits

                                 The District of Columbia's Child and Family Services
A-13-11-11149      3/2/2012      Agency, an Organizational Representative Payee for the              $274,806
                                 Social Security Administration

                                 Concurrent Beneficiaries Released from Incarceration
A-01-11-21168     3/13/2012                                                                        $14,402,813
                                 Whose Title II Benefits Have Not Been Reinstated

                                 South Dakota CARES, Inc., an Organizational
A-06-11-21189     3/14/2012      Representative Payee for the Social Security                           $8,739
                                 Administration (Limited Distribution)

                                 Benefit Payments Managed by Representative Payees of
A-13-11-11173     3/19/2012                                                                          $300,074
                                 Children in the Florida State Foster Care Program

                                 Spousal Beneficiaries Who Reported They Were Entitled to
A-09-10-21071     3/21/2012                                                                        $12,632,710
                                 a Government Pension
                                Administrative Costs Claimed by the Iowa Disability
A-07-11-11184      4/3/2012                                                                           $85,556
                                Determination Services
April 1, 2012 - September 30, 2012                                                                     51
                                Annual Earnings Test Underpayments Payable to
A-09-11-11128      4/6/2012                                                                        $15,018,132
                                Beneficiaries
                                     Reports with Questioned Costs
                                October 1, 2011 – September 30, 2012

Audit Number       Issue Date                                Report                              Dollar Amount

                                  Supplemental Security Income Recipients Who Did Not
 A-01-10-11020      4/16/2012                                                                         $8,189,509
                                  Report Their Marriage to the Social Security Administration

                                  New York State Disability Determination Program Indirect
 A-02-11-11135      5/21/2012                                                                           $161,923
                                  Costs

                                  The Social Security Administration's Triennial Site Reviews
 A-13-11-11127      5/31/2012                                                                            $18,130
                                  of Volume Organizational Representative Payees

                                  Disabled Individuals Potentially Eligible as Auxiliary Child
 A-13-10-10146      6/12/2012                                                                         $9,582,380
                                  Beneficiaries
                                  Benefit Payments Managed by Representative
 A-13-11-21105      6/18/2012     Payees of Children in Foster Care in the Social Security              $953,736
                                  Administration’s Chicago Region

 A-06-11-01132      6/21/2012     Puerto Rico Disability Determination Program                        $2,066,245
                                  The Accuracy of the Garnishment of Title II Benefits
                                                                                                        $50,210
 A-15-10-21063     7/19/2012      by the Social Security Administration's Court Ordered
                                  Garnishment System

                                  Using Medicare Claim Data to Identify Deceased
 A-08-09-19105      8/2/2012                                                                        $98,992,800
                                  Beneficiaries

                                  The Gold Crest Care Center - An Organizational
 A-02-11-11161      8/6/2012      Representative Payee for the Social Security                           $8,976
                                  Administration

                                  Management Advisory Report: Single Audit of the
 A-77-12-00010      9/7/2012      Commonwealth of Pennsylvania for the Fiscal Year                       $6,434
                                  Ended June 30, 2010

                                  The Social Security Administration's Foreign
 A-13-10-11098     9/14/2012                                                                             $7,189
                                  Enforcement Questionnaires

                                  Congressional Response Report: Supplemental
 A-01-11-01122     9/27/2012      Security Income Recipients with Automated Teller                      $18,828
                                  Machine Withdrawals Outside the United States


  Total                                                                                           $1,170,466,288




*Amount updated to reflect current value of cases worked.




52                                                                       April 1, 2012 - September 30, 2012
                              Reports with Funds Put to Better Use
                             October 1, 2011– September 30, 2012
   Audit
                Issue Date                           Report                           Dollar Amount
  Number
                               The Social Security Administration's Recovery
                               Act-funded Contract with International Business
A-15-11-11113   10/13/2011                                                                    $28,958
                               Machines, Inc., Blanket Purchase Agreement SS00-
                               08-40004, Call Order 51

                               Follow-up: Individuals Receiving Benefits
A-01-10-11008   10/14/2011     Inappropriately Under Multiple Social Security                $528,655
                               Numbers at the Same Address

                               Old-Age, Survivors and Disability Insurance Benefits
A-13-10-10143   11/9/2011                                                               $1,435,538,580
                               Affected by State or Local Government Pensions

                               Follow-up: Individuals Receiving Benefits Under
A-01-11-11145   1/13/2012      Multiple Social Security Numbers at Different                $487,146*
                               Addresses

                               Beneficiaries in Suspended Payment Status Pending
A-09-10-11065   2/13/2012                                                                 $30,570,852
                               the Selection of a Representative Payee

                               Unnecessary Medical Determinations for
A-01-10-20120   2/21/2012                                                                  $3,753,490
                               Supplemental Security Income Disability Claims

                               Supplemental Security Income Recipients
A-06-10-21066   2/22/2012      Receiving Social Security-administered Payments in          $2,194,103
                               Excess of Federal Limits
                               Benefit Payments Managed by Representative
A-13-11-11173   3/19/2012      Payees of Children in the Florida State Foster Care           $330,230
                               Program

                               Annual Earnings Test Underpayments Payable to
A-09-11-11128    4/6/2012                                                                  $3,754,533
                               Beneficiaries
                               Supplemental Security Income Recipients Who Did
A-01-10-11020   4/16/2012      Not Report Their Marriage to the Social Security            $3,406,962
                               Administration
                               Administrative Costs Claimed by the Oregon
A-09-11-11163   4/25/2012                                                                  $5,308,754
                               Disability Determination Services

                               Individual Representative Payees Who Misuse
A-13-10-10182    5/4/2012                                                                  $2,173,209
                               Benefits

                               Administrative Costs Claimed by the
A-04-11-01115   5/14/2012                                                                  $1,299,755
                               North Carolina Disability Determination Services

                               New York State Disability Determination Program
A-02-11-11135   5/21/2012                                                                    $120,683
                               Indirect Costs

                               Benefit Payments Managed by Representative
A-13-11-21105   6/18/2012      Payees of Children in Foster Care in the Social             $1,072,984
                               Security Administration’s Chicago Region




 April 1, 2012 - September 30, 2012                                                                   53
                               Reports with Funds Put to Better Use
                              October 1, 2011– September 30, 2012
      Audit
                 Issue Date                           Report                            Dollar Amount
     Number
                                Beneficiaries Who Had Not Cashed their Social
A-09-10-20133     7/19/2012                                                                 $133,694,565
                                Security Checks Within 1 Year
                                The Accuracy of the Garnishment of Title II Benefits
A-15-10-21063     7/19/2012     by the Social Security Administration's Court                $34,684,125
                                Ordered Garnishment System
                                Using Medicare Claim Data to Identify Deceased
A-08-09-19105     8/2/2012                                                                     $9,141,120
                                Beneficiaries
                                Management Advisory Report: Supplemental
A-06-09-29149     8/7/2012      Security Income Payments to Multi-recipient                  $62,563,749
                                Households

                                Disabled Individuals with Mental Impairments in
A-07-11-11110     9/27/2012                                                                $2,427,829,644
                                Need of a Representative Payee


  Total		                                                                                  $4,158,482,097



*Amount updated to reflect current value of cases worked.




54                                                                     April 1, 2012 - September 30, 2012
APPENDIX C: Reporting Requirements Under the
Omnibus Consolidated Appropriations Act of FY 1997 to meet the
Requirements of the Omnibus Consolidated Appropriations Act of 1997,
P.L. 104-208, we are providing requisite data for the second half of FY
2012 from the Offices of Investigations and Audit in this report.
Office of Investigations
We are reporting over $50 million in SSA funds as a result of our investigative activities in this
reporting period (4/1/12-9/30/12). These funds are broken down in the table below.

                                       Investigative Activities
                      1st Quarter      2nd Quarter    3rd Quarter      4th Quarter
                       10/1/11 –         1/1/12 –       4/1/12 –         7/1/12 –           Total
                       12/31/11          3/31/12        6/30/12          9/30/12

  Court Ordered
                       $7,905,505       $14,930,372    $11,200,476       $9,097,033      $43,133,386
   Restitution


    Recoveries         $13,019,445      $13,306,273    $13,388,804      $13,640,341      $53,354,863


       Fines            $945,438        $1,094,323     $1,459,815        $1,174,862       $4,674,438


   Settlements/
                        $484,000        $1,089,756      $430,156         $439,114         $2,443,026
    Judgments


       TOTAL          $22,354,388       $30,420,724    $26,479,251      $24,351,350     $103,605,713



Office of Audit
SSA management informed us that the Agency has completed implementing recommendations from
12 audit reports during this time period valued at over $2 billion.
MANAGEMENT ADVISORY REPORT: SUPPLEMENTAL SECURITY INCOME PAYMENTS TO MULTI-RECIPIENT
HOUSEHOLDS (A-06-09-29149, 8/7/2012)
We recommended that SSA consider the viability of a legislative proposal to extend payment limits
currently in effect only for married couples to other multi-recipient households. The implemented value
of this recommendation is $62,563,749.
ADMINISTRATIVE COSTS CLAIMED BY THE NORTH CAROLINA DISABILITY DETERMINATION SERVICES
(A-04-11-01115, 5/14/2012)
We recommended that SSA determine how many new hires it expects to fund at the North Carolina
Disability Determination Services (NC-DDS) over the next several years. If the expected number of new
hires will not increase to a level justifying the additional office space, SSA should evaluate options to
modify the lease and mitigate the continuing costs of this excess space. The implemented value of this
recommendation is $249,000.
We recommended that SSA instruct the NC-DDS to de-obligate $1,043,063 of unliquidated obligations
for occupancy costs from its Fiscal Year 2009 operating fund account. The implemented value of this
recommendation is $1,043,063.



  April 1, 2012 - September 30, 2012                                                                   55
ADMINISTRATIVE COSTS CLAIMED BY THE OREGON DISABILITY DETERMINATION SERVICES
(A-09-11-11163, 4/25/2012)
We recommended that SSA work with the Oregon Disability Determination Services to ensure the
payments for medical costs do not exceed the maximum amount allowed under Federal regulations.
The implemented value of this recommendation is $5,308,754.
BENEFIT PAYMENTS MANAGED BY REPRESENTATIVE PAYEES OF CHILDREN IN THE FLORIDA STATE FOSTER
CARE PROGRAM (A-13-11-11173, 3/19/2012)
We recommended that SSA modify the existing State Verification Exchange System data exchange
agreement to include verifying whether a child is receiving Social Security benefits. The implemented
value of this recommendation is $330,230.
SUPPLEMENTAL SECURITY INCOME RECIPIENTS RECEIVING SOCIAL SECURITY-ADMINISTERED PAYMENTS IN
EXCESS OF FEDERAL LIMITS (A-06-10-21066, 2/22/2012)
We recommended that SSA determine whether it can implement cost- effective system enhancements
that address the payment computation errors. The implemented value of this recommendation is
$2,194,103.
BENEFICIARIES IN SUSPENDED PAYMENT STATUS PENDING THE SELECTION OF A REPRESENTATIVE PAYEE
(A-09-10-11065, 2/13/2012)
We recommended that SSA select representative payees as quickly as possible for child beneficiaries
under age 15. The implemented value of this recommendation is $8,123,375.
We recommended that SSA remind employees to evaluate whether child beneficiaries ages 15 through
17 are capable of managing their benefits. The implemented value of this recommendation is $4,304,439.
OLD-AGE, SURVIVORS AND DISABILITY INSURANCE BENEFITS AFFECTED BY STATE OR LOCAL GOVERNMENT
PENSIONS (A-13-10-10143, 11/9/2011)
We recommended that SSA continue actions to determine whether Windfall Elimination Provision or
Government Pension Offset provisions apply for the remaining beneficiaries identified during our review.
The implemented value of this recommendation is $1,435,538,580.
SUPPLEMENTAL SECURITY           INCOME      RECIPIENTS      WITH    UNREPORTED       REAL    PROPERTY
(A-02-09-29025, 6/1/2011)
We recommended that SSA assess the cost/benefits of expanded LexisNexis use in determining the
accuracy of recipients’ allegations of resources through a pilot study requiring the use of LexisNexis
when initial Supplemental Security Income (SSI) applications are processed and SSI redeterminations
are completed. The implemented value of this recommendation is $356,428,515.
MINOR CHILDREN RECEIVING BENEFITS WITHOUT A REPRESENTATIVE PAYEE (A-13-10-10104, 5/4/2011)
We recommended that SSA remind employees to follow policies and procedures when issuing direct
payments to children under age 18. Specifically, (1) appoint representative payees for all children under
age 15 and (2) document capability determinations for children ages 15 through 17 who are deemed
capable of receiving direct payment. The implemented value of this recommendation is $66,220,388.
FIELD OFFICE PROCEDURES FOR CHARGING AND COLLECTING FEES (A-04-09-19041, 8/28/2009)
We recommended that SSA, for non-standardized fees, determine whether the full cost of processing
information requests is being recovered (for example, are remittance costs and an accurate overhead
rate being applied) and update the fee calculation as needed. The implemented value of this
recommendation is $205,148.
FUGITIVE FELONS SERVING AS REPRESENTATIVE PAYEES (A-01-08-18021, 3/31/2009)
We recommended that SSA review its current computer matching process to ensure that, in the future,
the Agency generates and resolves alerts for all representative payees with outstanding felony warrants.
The implemented value of this recommendation is $19,358,640.
SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH EXCESS INCOME AND/OR RESOURCES (A-01-08-18022,
7/23/2008)
We recommended that SSA obtain electronic bank statement information, in the most cost-effective
manner, to include bank account summary and transaction-level data, so that additional income and
resources may be identified and investigated for possible violations. The implemented value of this
recommendation is $169,162,807.



56                                                                   April 1, 2012 - September 30, 2012
APPENDIX D: Significant Management Decisions With Which the
Inspector General Disagrees
SUPPLEMENTAL SECURITY INCOME RECIPIENTS WHO DID NOT REPORT THEIR MARRIAGE TO THE
SOCIAL SECURITY ADMINISTRATION (A-01-10-11020, 4/16/2012)
Results of Review: Based on our sample, we estimate that about 900 SSI recipients were overpaid
approximately $8.2 million because they did not report their marriages to SSA. By stopping these
improper payments, the Agency could save an estimated $3.4 million over the next 12 months.
For example, a South Carolina couple began receiving SSI payments in December 2004. In
December 2005, the wife reported that she and her husband were no longer living together—
even though they still were. In August 2011, she admitted to SSA that she lied about the separation
because she was concerned her husband’s income/resources would stop her SSI payments.
As a result, SSA assessed a $15,115 overpayment on her record and referred the case to our
Office of Investigations for possible fraud.
Recommendation: Review the remaining 3,016 cases from our audit population that will most
likely result in overpayments because of unreported marriages.
Agency Response: SSA disagreed with the recommendation. SSA stated while it will continue to
work with OIG as the OIG conducts further analysis to reduce the number of cases in the audit
population that are likely to result in an overpayment, the Agency does not have the resources
to review over 3,200 cases identified in the OIG review. Diverting resources to complete these
reviews would jeopardize the Agency’s ability to process claims, provide adequate service to
the public, and perform other critical program integrity workloads.
OIG Response: Our review showed that SSA could identify about $8.2 million in overpayments
and that by stopping these improper payments, the Agency could save an estimated $3.4
million over the next 12 months. We further estimated that it would cost SSA about $511,000
to review the remaining cases, which is substantially less than the overpayments and savings
they could identify.
DIRECT DEPOSIT CHANGES INITIATED BY THE SOCIAL SECURITY ADMINISTRATION’S NATIONAL
800-NUMBER STAFF (Limited Distribution) (A-02-12-21272, 7/10/2012)
Results of Review: The controls over direct deposit routing number changes initiated by SSA’s
national 800-number staff were not fully effective. Recent investigations by our Office of
Investigations and the interviews we completed with 33 beneficiaries for this audit confirmed
that there were unauthorized changes to records, and SSA’s control environment did not
prevent them. SSA primarily relies on its staff to verify the identity of callers before changing
a beneficiary’s direct deposit information. Instructions for how to process requests to change
direct deposit information were not always current or complete.
Recommendation: Determine whether it can develop cost-effective controls to prevent seemingly
fraudulent requests to change a beneficiary’s direct deposit information from processing without
further investigation. The controls should leverage information in a beneficiary’s electronic
record or records of previous transactions to identify potentially fraudulent transactions, such
as records with previous fraudulent changes or a telephone number making repeated calls
attempting to change multiple beneficiaries’ records.
Agency Response: SSA disagreed with the recommendation stating the Agency does not
believe there is a feasible way of anticipating future fraudulent activity absent additional
information and that the Agency has already taken steps to implement new processes to flag
possible bank fraud cases.
OIG Response: While the steps SSA outlined appear to be good initial steps, we continue to
believe SSA should enhance the process used to identify individuals who call 800-number staff to
request a change to a beneficiary’s direct deposit information. The system needs to do a better



  April 1, 2012 - September 30, 2012                                                            57
job of verifying that the individual making the request to change direct deposit information
is who he/she claims to be. SSA may accomplish this by requiring that beneficiaries create
their own security questions or codes that SSA staff or systems could verify before processing a
request to change a beneficiary’s record.
Recommendation: Enhance communications to beneficiaries when a caller requests and SSA
processes an address and direct deposit change at the same time.
Agency Response: SSA disagreed with the recommendation stating the Agency would need
to evaluate the recommendation further before deciding whether the step we recommended
will help eliminate fraud related to direct deposit changes initiated via the telephone.
OIG Response: SSA’s current processes for notifying beneficiaries when address and direct deposit
changes are made at the same time are inconsistent, depending on whether the changes
are initiated online or through its 800-number. We believe implementing our recommendation
will allow an individual to know someone made an unauthorized change to his/her account
and gives the beneficiary the opportunity to correct the account before SSA payments are
misdirected to the wrong bank account.
THE SOCIAL SECURITY ADMINISTRATION                  COST     ALLOCATION       METHODOLOGY
(A-15-10-20152, 6/18/2012)
Results of Review: We contracted with Grant Thornton LLP to conduct four Cost Analysis System
(CAS) reviews. For this fourth review, Grant Thornton identified the following findings that need
to be addressed.
•	 The cost allocation methodology could be improved in allocating administrative costs
   between the Social Security and Medicare Trust Funds.
•	 The basis for allocating shared workload costs to Trust Funds did not reflect a cause-and-
   effect relationship between resources and outputs.
•	 Critical work measurement data were unreliable.
•	 To determine final Trust Fund charges, SSA needed to perform additional spreadsheet
   calculation outside the official cost allocation system, CAS.
•	 Substantial manual intervention was required for data collection and validation.
Grant Thornton was not able to conclude whether the methodology for allocating administrative
costs between trust funds was equitable and accurate because of the underlying data concerns
and the non-compliance issues related to Statement of Federal Financial Accounting Standards
No. 4.
Recommendation: Implement an annual process for reviewing the method of allocating costs
to ensure the current allocation is effective, accurate, and efficient in light of current year
changes.
Agency Response: SSA disagreed stating it already conducts an annual review and modifies
CAS to make necessary changes.
Grant Thornton Response: Management provided no evidence to support its assertion that a
formal process to review the cost allocation methodology exists.
Recommendation: Assign non-personnel costs to appropriate workloads or program activities
or where direct tracing is not possible or feasible, assign based on cause-and-effect.
Agency Response: SSA disagreed stating it already assigns non-personnel costs using cause-
and-effect principles. When cause-and-effect principles are not practical, costs are allocated
on a reasonable and consistent basis.
Grant Thornton Response: No evidence was provided to demonstrate that evaluation has
been completed by management to determine the practicality of determining cause and
effect relationships.


58                                                             April 1, 2012 - September 30, 2012
Recommendation: Discontinue the use of benefit outlays as the means of allocating shared costs
to program activities. Instead, SSA should review existing data sets to identify cost assignment
methods that manifest suitable causal relationships between the work SSA performs and the
programs that are charged for that work.
Agency Response: SSA disagreed with the recommendation noting that the Social Security Act
prevents the Agency from changing its cost accounting methodology without consent from
the Department of Health and Human Services. SSA asked Kathleen Sebelius, Secretary of HHS,
for her opinion about the recommendation. On March 1, 2012, Secretary Sebelius replied that
"[a]t this time, we do not believe changes to the cost allocation methodology are necessary."
Grant Thornton Response: We realize that in the past, this method may have been appropriate.
However, in light of changes to Federal accounting standards as well improvements in information
technologies, the use of benefit outlays as the means of allocating shared costs to program
activities is inappropriate.
Recommendation: Use actual operating expenses to determine the distribution and allocation
of costs to outputs and program activities.
Agency Response: SSA disagreed with the recommendation stating it already uses certain
operating expenses as part of its overall cost allocation process.
Grant Thornton Response: We believe that updates to the methodology will provide a more
accurate allocation of costs between programs as well as reduce the amount of time and
resources SSA incurs to allocate those costs.




  April 1, 2012 - September 30, 2012                                                         59
APPENDIX E: Collections from Investigations and Audits
The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and offsets achieved as a
result of OIG activities each semiannual period.


Office of Investigations
          Total Restitution Reported by DOJ as Collected for SSA

                                   Total Number
                                    of Individuals                  Court Ordered                  Total Restitution
             FY                       Assigned                      Restitution for                 Collected by
                                   Court Ordered                     This Period                         DOJ
                                     Restitution
           2010                              447                        $20,670,938                  See Footnote1

           2011                              550                        $26,408,142                  See Footnote1

           2012                              580                        $35,388,290                  See Footnote1

          TOTAL                             1,577                       $82,467,370                  See Footnote1
1 DOJ migrated collection data to a new computer system and is working to generate reports that will provide us with this information.




             Recovery Actions Based on OI Investigations

                       Total Number of Recovery
        FY                                                                 Amount for Recovery
                            Actions Initiated

      2010                               1,128                                                $36,431,093

      2011                               1,310                                                $45,989,019

      2012                               1,382                                                $53,354,863

     TOTAL                               3,820                                              $135,774,975




60                                                                                                      April 1, 2012 - September 30, 2012
Office of Audit
The following chart summarizes SSA’s responses to our recommendations for the recovery or
redirection of questioned and unsupported costs. This information is prepared in coordination
with SSA’s management officials and was current as of September 30, 2012.
                       SSA’s Responses to OIG’s Recommendations
                  Recovery or Redirection of Questioned and Unsupported Costs1
          Reports
                                                               Amount           Amount
            with       Questioned/       Management
  FY                                                      Collected or to be   Written-Off/      Balance2
         Questioned Unsupported Costs    Concurrence
                                                              Recovered        Adjustments
           Costs

 2010        21        $1,416,191,419    $1,415,034,260      $1,355,091,671      $23,464,572     $37,635,176


 2011        28        $1,587,604,454    $1,561,809,217         $46,757,309     $78,672,083    $1,462,175,062


 2012        29        $1,170,466,288      $838,308,020          $9,862,891    $291,459,546     $869,143,851


 TOTAL       78        $4,174,262,161    $3,815,151,497    $1,411,711,871      $393,596,201    $2,368,954,089

  1
   The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by
  the OIG.
  2
   Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/
  Adjustments




 April 1, 2012 - September 30, 2012                                                                             61
APPENDIX F: Significant Monetary Recommendations From Prior FYs
for   Which Corrective Actions Have Not Been Completed
DISABILITY INSURANCE AND SUPPLEMENTAL SECURITY INCOME CLAIMS ALLOWED BUT NOT PAID
(A-01-10-10177, 6/20/2011)
Results of Review: Based on SSA’s review of the cases we identified and referred to the Agency,
SSA staff determined that some claimants were eligible for benefits not paid.
We referred 1,847 cases to the Agency for review. Of these,
•	 317 (17 percent) were corrected, and SSA calculated about $4.8 million in past-due benefits
   in 296 of these cases;
•	 29 (2 percent) did not need corrective action;
•	 211 (11 percent) were still being reviewed by SSA as of May 2011; and
•	 1,290 (70 percent) appeared to have no activity related to our referrals as of May 2011.
Recommendation: Complete its work on the remaining cases of the 1,847 unpaid claimants
we identified and ensure all past due benefits are paid to beneficiaries as appropriate.
Agency Response: SSA agreed with the recommendation.
Valued at: $8,921,121 in questioned costs.
Corrective Action: SSA expects to complete these cases by January 2013.
TITLE II BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED AND WHO HAVE A DATE OF DEATH
ON THE NUMIDENT (A-09-10-10117, 4/28/2011)
Results of Review: SSA needs to improve controls to ensure it takes timely and proper actions
to resolve death information on the Numident for suspended beneficiaries. We estimate that:
•	 4,699 beneficiaries remained in suspended pay status despite the death information on their
   Numident. Of these, we estimate 2,976 were improperly paid approximately $23.8 million.
•	 2,715 beneficiaries’ personally identifiable information was at risk of being released to the
   public.
•	 157 beneficiaries whose benefits were terminated were improperly paid $342,114.
Recommendation: Identify and take corrective action on the remaining population of 6,277
suspended beneficiaries who had a date of death on the Numident.
Agency Response: SSA agreed with the recommendation.
Valued at: $22,855,376 in questioned costs.
Corrective Action: SSA is working to review and terminate the identified cases as appropriate.
Recommendation: Take appropriate action to terminate benefits or remove erroneous death
information from the Numident for the 180 beneficiaries identified by our audit.
Agency Response: SSA agreed with the recommendation.
Valued at: $910,282 in questioned costs.
Corrective Action: SSA is working to review and terminate the identified cases as appropriate.
RECOVERY OF TITLE II PAYMENTS ISSUED AFTER BENEFICIARIES’ DEATHS (A-09-10-11037, 1/4/2011)
Results of Review: SSA needs to improve its controls and procedures to ensure that appropriate
and timely actions are taken to recover payments issued after beneficiaries’ deaths. Based on
a random sample of 200 beneficiaries, we estimate about:
•	 $18.8 million in payments after death was not recovered or properly resolved for approximately
   25,940 deceased beneficiaries, and

62                                                             April 1, 2012 - September 30, 2012
•	 $34.8 million in payments after death that had been recovered or properly resolved needed
   to be removed as overpayments from SSA’s records for approximately 17,520 deceased
   beneficiaries.
Recommendation: Evaluate the results of its corrective actions for the 68 errors and determine
whether the Agency should review the population of 6,486 deceased beneficiaries with
payments after death.
Agency Response: SSA agreed with the recommendation.
Valued at: $18,787,948 in questioned costs.
Corrective Action: Based on the results of the review of the 68 errors, SSA determined that
action on the population of 6,486 deceased beneficiaries is not necessary. SSA has a 3-year
period to request a debit of an account for payments disbursed after death. If the Agency
does not request the debit within 3 years, the request is rejected and not processed. This time
has elapsed for many of these cases. It would not be cost effective to review over 6,000 cases
when SSA would only be able to recover limited money.
DEDICATED ACCOUNT UNDERPAYMENTS PAYABLE TO CHILDREN (A-09-09-29110, 11/10/2010)
Results of Review: SSA needs to improve controls to ensure it pays dedicated account
underpayments to representative payees for the children in their care. Based on a random
sample of 275 underpayments, we found SSA did not pay an estimated 7,775 underpayments
totaling approximately $35 million. This included 3 organizational representative payees who
did not establish dedicated accounts for $367,612 in underpayments for 47 children.
Generally, this occurred because SSA did not have adequate controls to ensure that
representative payees established dedicated accounts. In addition, SSA staff did not notify
representative payees about the existence of underpayments that required the establishment
of dedicated accounts, or adequately control the issuance of installment payments.
Recommendation: Identify and take corrective action on the population of SSI recipients who
have dedicated account underpayments.
Agency Response: SSA agreed with the recommendation.
Valued at: $34,229,920 in questioned costs.
Corrective Action: SSA asked its Office of Systems to provide an updated list of SSI recipients
who have dedicated accounts pending. SSA will take corrective action on the population of
SSI recipients who have dedicated account underpayments pending for longer than 1 year.
SSA expects to complete its review of these cases by the end of December 2012.
BENEFITS PAYABLE TO CHILD BENEFICIARIES WHO NO LONGER NEED REPRESENTATIVE PAYEES (A-
09-09-29116, 8/20/2010)
Results of Review: SSA needed to improve controls to ensure child beneficiaries who attained
age 18 were paid benefits that had been previously withheld pending the selection of a
representative payee. Based on a random sample of beneficiaries, we found that SSA did not
pay an estimated 13,464 beneficiaries approximately $31.2 million in withheld benefits.
Generally, these errors occurred because SSA did not generate a systems alert to identify
beneficiaries who should have been paid withheld benefits when they attained age 18 or SSA
employees did not take corrective actions to pay withheld benefits when processing student
awards when a child attained age 18.
Recommendation: Identify and take corrective action on the population of child beneficiaries
over age 18 whose benefits were withheld pending the selection of a representative payee.
Agency Response: SSA agreed with the recommendation.
Valued at: $31,052,839 in questioned costs.



  April 1, 2012 - September 30, 2012                                                        63
Corrective Action: SSA received permission from the Agency’s Office of Privacy and Disclosure
on March 19, 2012 to use the W2-1040SE addresses to contact the individuals about possible
underpayments. The 1040SE addresses will hopefully provide SSA with a productive way of
reaching the individuals, many of whom had their benefits terminated over 10 years ago. SSA’s
Office of the Chief Actuary completed the match and sent its results to the Office of Public
Services and Operations Support in March 2012.
SSA is awaiting guidance from the Agency’s Office of Income Security Programs on certain
policy questions related to this workload.
RETROACTIVE TITLE II PAYMENTS TO RELEASED PRISONERS (A-06-08-38081, 7/14/2010)
Results of Review: SSA issued improper or questionable retroactive payments to beneficiaries
after their release from prison. About half the retroactive payment transactions of $10,000 or
more we reviewed were either improper or issued without any explanation or justification being
documented. SSA did not establish sufficient controls to ensure large retroactive payments
to released prisoners were valid. Specifically, SSA payment systems allowed SSA personnel to
compute and issue large retroactive payments without explanation or justification and without
supervisory review. The lack of sufficient controls over these payments increased the potential
for fraud, waste, or abuse.
Based on our sample results, we estimate that SSA issued approximately $10.3 million in retroactive
payments to prisoners that were either incorrect or could not be explained based on available
documentation.
Recommendation: Establish controls to ensure employees explain and justify large retroactive
payments issued to released prisoners.
Agency Response: SSA agreed with the recommendation.
Valued at: $6,468,914 in questioned costs.
Corrective Action: SSA is in the midst of establishing a Prisoner Update Processing System remark
screen establishing that it received proof of the beneficiary’s release from incarceration. SSA
believes this action will satisfy the recommendation by documenting the rationale for reinstating
benefits. SSA will add this new step as an instruction in its Program Operations Manual System.
FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER SUSPENDING COLLECTION
EFFORTS ON TITLE XVI OVERPAYMENTS (A-04-09-19039, 9/2/2009)
Results of Review: We found that SSA took action on three of the recommendations in our
prior report. However, funding limitations delayed development of an automated system that
would address the two remaining recommendations. SSA’s corrective actions resulted in some
improvements in the error rates we previously reported. However, we still found similar conditions
identified in the prior report.
We also found that SSA did not always (1) document the justification for the decisions to suspend
overpayment collection efforts and (2) obtain the required management approval before
suspending an overpayment. On occasion, SSA personnel suspended collection efforts when
debtors or the debtors’ representative payees had reported earnings that may have enabled
some repayment. Also, SSA personnel suspended collections of some debts and classified the
debtors as unable to locate or out of the country even though we did not find evidence that
SSA attempted to contact the debtors or the debtors’ representative payees through their
current employer. Overall, we estimated for 6,500 cases, totaling $52.2 million, SSA personnel
did not follow policies and procedures when it suspended overpayment collection efforts.
Recommendation: Consider revising the May 2009 policy to require the 2-PIN process
(management approval) for suspension decisions controlled by the Recovery and Collection
of Overpayment Process.
Valued at: $22,639,420 in funds put to better use.



64                                                               April 1, 2012 - September 30, 2012
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA discussed the feasibility of a 2-pin process for suspension decisions
controlled by the Recovery and Collection of Overpayments System with the Agency’s Office
of Systems. Through those discussions, SSA determined that the 2-pin process is feasible but due
to Office of Systems resources, the Agency is not sure when this process can be implemented
but will continue to follow up with the Office of Systems.
FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS REPORTED ON THE MASTER
EARNINGS FILE (A-01-08-28075, 4/15/2009)
Results of Review: Our audit found that the Agency made efforts to reduce overpayments
resulting from work activity. However, we found that SSA did not evaluate all earnings, and as
a result, overpayments resulted from work activity.
Based on our review, we estimate that approximately $3.1 billion was overpaid to
about 173,000 disabled beneficiaries because of work activity. Although SSA identified
about 58 percent of these overpayments, we estimate the remaining 42 percent—
approximately $1.3 billion—went undetected by the Agency to about 49,000 disabled
beneficiaries. In addition, we estimate SSA will continue to incorrectly pay about
$382 million over the next 12 months to individuals who are no longer entitled to disability benefits
if action is not taken by the Agency.
SSA performed 170,664 work-related continuing disability reviews (CDR) in 2008 at a unit cost of
$397.45. Based on our review, we estimate about $3.1 billion was overpaid to approximately
173,000 disabled beneficiaries (out of 518,080 in the estimated universe) because of work
activity. To perform work-related CDRs for all 518,080 disabled beneficiaries, it would cost SSA
about $206 million (assuming the $397.45 unit cost remains the same). This results in a potential
benefit-cost ratio of $15 to $1.
We recognize SSA’s efforts to improve the work-related CDR process. In addition, we acknowledge
the Agency’s limited resources with which to perform this workload. However, we believe SSA
may achieve greater savings in the long-term if the Agency could provide the resources to
perform work-related CDRs for all disabled beneficiaries with substantial earnings reported on
the Master Earnings File.
Recommendation: Develop and implement a plan to allocate more resources to timely perform
work-related CDRs—and assess overpayments resulting from work activity—for cases identified
by the Agency’s earnings enforcement process.
Valued at: $1,335,815,580 in questioned costs and $381,563,100 in funds put to better use.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA made the following improvements to the Agency’s work-related CDR
processes and management information.
•	 SSA established a dedicated staff, which targets the oldest cases.
•	 SSA now prioritizes enforcement alerts (for cases with unreported earnings) by the amount
   of earnings. SSA works the cases with highest earnings first to minimize overpayments.
•	 SSA improved communications between its field offices and processing centers for priority
   cases that must be transferred between components.
•	 SSA established an Agency standard report for work CDR management information and
   overpayments. It is currently in the final stages of validation.
•	 SSA is establishing streamlined earnings reporting processes via telephone and Internet.
In addition, as recommended by the Government Accountability Office, SSA is evaluating the
feasibility of:




  April 1, 2012 - September 30, 2012                                                              65
•	 Periodically matching disability beneficiaries and recipients to Federal payroll data.
•	 Using the Automated Earnings Reappraisal Operation to identify individuals who have
   returned to work.


Significant Monetary Recommendations From Prior Semiannual Report to
Congress for Which Recent Corrective Actions Have Been Made
FEDERAL EMPLOYEES RECEIVING BOTH FEDERAL EMPLOYEES’ COMPENSATION ACT AND DISABILITY
INSURANCE PAYMENTS (A-15-09-19008, 10/14/2010)
Results of Review: We confirmed with SSA that improper payments resulted when recipients
whose Federal Employees’ Compensation Act (FECA) compensation was not recorded or
accounted for in the calculation of their Disability Insurance (DI) benefits. In addition, we
estimated improper payments that resulted when SSA did not take into account recipients’
FECA compensation in calculating their SSI payments. Based on our findings, we projected
approximately $43 million in estimated overpayments were paid to about 961 DI recipients
for whom SSA did not consider FECA compensation in the initial calculation of their benefits.
Furthermore, we estimate approximately $603,140 in overpayments was paid to about 80 SSI
recipients whose FECA compensation was not initially accounted for in the calculation of their
payments.
Recommendation: Develop a computer matching agreement with Department of Labor to
identify possible DI and SSI claimants whose benefits do not reflect the FECA compensation they
received. A matching agreement will allow SSA to perform matching activities similar to what
we performed in this review and take appropriate action for recipients who have overpayments
that result from SSA not taking into account FECA compensation.
Agency Response: SSA agreed with the recommendation.
Valued at: $43,991,444 in questioned costs.
Corrective Action: SSA agreed to the recommendation in its response dated September 16,
2010; however, at this time, SSA has determined that it is not in the best interests of the Agency
to pursue a matching agreement with DOL for the following reasons: Effective January 31, 2006,
the Office of Operations established a process for designated Processing Center (PC) employees
to access the DOL Agency Query System (AQS) to obtain FECA payment verification. There
were 22 original users allowed access, which later expanded to 46 with a few reserve positions
available. Since that time, PC employees have been successfully accessing AQS to determine
FECA payment amounts on SSA beneficiaries. The 2010 audit report was conducted on 2002
through 2007 data; therefore, the audit did not consider the full impact across all years of the
new process of querying DOL’s AQS to identify FECA payments. The potential for improper
payments generated by the FECA portion of Workers’ Compensation (WC) is minimal. We
estimate that 83 percent of SSA’s WC offset of SSDI is the result of State administered programs.
Only 17 percent is related to Federal programs and of that, only 3 percent is Federal WC
(FECA). Furthermore, the audit’s sample results estimated only 1,198 instances, over an 8 year
period where DI beneficiaries or SSI recipients received DI or SSI with no indicator that FECA
compensation was recorded or accounted for. We believe that the costs to explore, establish,
and conduct a data match with DOL would far outweigh even the potential benefit of doing so
given the process changes we have already implemented and the volume of potential offsets
not otherwise identified through AQS. Therefore, the Agency will not be pursuing a computer
data matching agreement with DOL and will close this audit recommendation.




66                                                              April 1, 2012 - September 30, 2012
APPENDIX G: Significant Non-Monetary Recommendations From Prior
FYs for Which Corrective Actions Have Not Been Completed
FOLLOW-UP: SURVIVOR BENEFITS PAID IN INSTANCES WHEN THE SOCIAL SECURITY ADMINISTRATION
REMOVED THE DEATH ENTRY FROM A PRIMARY WAGE EARNER’S RECORD (A-06-10-20135, 9/1/2011)
Result of Review: SSA has made progress in completing corrective actions to address the
recommendations in our September 2006 report. SSA determined that 286 of the 307 wage
earners identified during the prior review were actually deceased. SSA confirmed that 14 wage
earners were alive and took action to terminate survivor benefit payments. SSA erroneously
issued approximately $579,000 in survivor benefits to family members of these wage earners.
SSA could provide no documentation to indicate completion of death verifications for the
remaining seven individuals.
As part of our follow-up review, we identified an additional 642 wage earners whose family
members received survivor benefits even though SSA had deleted the wage earners’ death
entries from the Death Master File, and SSA’s Numident file indicated the wage earners were
alive. At the time of our review, SSA paid approximately $644,000 in monthly survivor benefits
to family members of the 642 wage earners. Our review of sampled records indicated that,
similar to our 2006 findings, SSA employees who deleted these death entries did not document
pertinent facts to support or explain these transactions. The resurrection transactions indicated
the wage earners were alive, and survivor benefits were improper. If the wage earners were
actually deceased, SSA erroneously deleted their information from the Death Master File.
Recommendation: Perform death verifications for each of the 642 records with survivor benefit
payments identified in this review and the 7 pending from our prior review and take appropriate
action (for example, terminate benefits and establish overpayments, refer potentially fraudulent
cases to OIG, and/or reinstate death entries).
Agency Response: SSA agreed with the recommendation.
Corrective Action: None
AGED BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED FOR ADDRESS OR WHEREABOUTS
UNKNOWN (A-09-09-29117, 6/17/2011)
Result of Review: SSA had not taken appropriate actions for Title II beneficiaries over age 70
whose benefits were suspended for address, whereabouts unknown, or miscellaneous reasons.
We estimate that
•	 29,196 beneficiaries whose whereabouts were unknown for longer than 7 years had not
   been terminated based on a presumption of death;
•	 5,981 beneficiaries had been suspended between 2 and 7 years because their whereabouts
   were unknown; and
•	 2,964 foreign beneficiaries were suspended because they did not return the foreign
   enforcement questionnaire (FEQ), and there was no evidence that SSA conducted the
   required follow-up actions to determine their whereabouts or whether they were deceased.
Recommendation: Identify and terminate in accordance with the Social Security Administration’s
presumption of death policy, the entitlement of the estimated 29,196 beneficiaries whose
whereabouts were unknown and have been in suspended pay status for 7 or more years.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA will identify and terminate beneficiaries in this category. The Agency’s
Title II Beneficiaries Suspense Workgroup will study other long-term suspense categories and SSA
will act on its findings and recommendations.
Recommendation: Take appropriate action (including termination of benefits) for the estimated
2,964 suspended beneficiaries living outside the United States who did not return the FEQ.


  April 1, 2012 - September 30, 2012                                                          67
Agency Response: SSA agreed with the recommendation.
Corrective Action: None
SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH UNREPORTED REAL PROPERTY
(A-02-09-29025, 6/1/2011)
Results of Review: SSA’s records on real property ownership matched with public property
records in LexisNexis for 298 of the 350 recipients we reviewed. SSA determined that 25 recipients
did not own what appeared to be unreported properties listed in LexisNexis. For the remaining
27 recipients, SSA determined LexisNexis was accurate and the recipients owned unreported
real property. Sixteen of these 27 recipients were improperly paid about $112,000 when the
value of their unreported real property was taken into account. The Agency could not recover
approximately half of this because of its rules of administrative finality. Based on our sample
results, we estimated that about 541,580 recipients misreported real property ownership, and
SSA improperly paid 320,940 of these recipients over $2.2 billion. Comparing the costs of using
LexisNexis to the benefits gained, we concluded that the use of LexisNexis was cost effective
and would save about $350 million annually.
Recommendation: Expand the use of LexisNexis if the pilot study demonstrates it is cost-beneficial
to do so.
Agency Response: SSA agreed with the recommendation.
Corrective Action: The Deputy Commissioner for Operations is waiting for further information
from the Office of Quality Performance to assess in what capacity SSA will support a pilot of
Accurint LexisNexis.


THE SOCIAL SECURITY ADMINISTRATION’S TIME ALLOCATION SYSTEM (A-14-10-20122, 4/18/2011)
Result of Review: We found several events that led to SSA’s decision to terminate the Time
Allocation System (TAS). Some of these events raised questions about SSA’s management of the
TAS project, given that the project was terminated without proper analysis to determine which
Workload Management System (DOWS or TAS) more accurately accounted for workload time
measurements. We believe if SSA had conducted sufficient project planning before initiating
the TAS project, most, if not all, of the events identified in this report could have been resolved
before expending approximately $36 million of Agency resources. We have organized our
findings based on the Systems Development Life Cycle used by SSA.
•	 Planning and Analysis Phase
     —Insufficient Planning and Analysis Leading to the Termination of TAS
     —TAS Benefits and Costs Were Not Identified Timely
•	 Construction Phase
     —Insufficient Testing Due to Storage Constraints
•	 Post Release Phase
     —No Post Implementation Review (PIR) after a system was in operation for 6 months, or after
     TAS was terminated, to determine reasons for the project’s failure.
•	 Maintenance Phase
     —Inability to maintain TAS cost-effectively.
Recommendation: Take the necessary steps to validate the accuracy of the current work
measurement system or future replacements.
Agency Response: SSA agreed with the recommendation.




68                                                               April 1, 2012 - September 30, 2012
Corrective Action: SSA has reviewed and is working to simplify work-sampling categories for FY
2012. SSA plans to issue training and reminders at the beginning of the FY to ensure procedures
outlined for sampling are followed. SSA continues to consider the possibility of employing system
options to support its sampling techniques.
Recommendation: Perform a PIR after a system has been in operation for 6 months and for all
terminated projects to determine reasons for the project’s termination.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA is currently refining its PIR guidance.
IMPACT OF ALIEN NONPAYMENT PROVISIONS ON FIELD OFFICES ALONG THE MEXICAN BORDER
(A-08-10-20140, 2/15/11)
Results of Review: While we recognize current law requires that alien nonpayment provision
(ANP) beneficiaries routinely visit the United States to maintain their benefits, we believe this
practice has a significant impact on some field offices along the Mexican border. For example,
we found that over 1,000 ANP beneficiaries visit some field offices monthly to establish presence in
the United States. Providing services to such a large volume of beneficiaries increases workload;
adds to wait times; and, during high traffic days, results in some office space issues. Furthermore,
field office personnel at each office we visited told us the number of ANP beneficiaries is
increasing. For these reasons, some field office personnel we interviewed questioned the need
for ANP beneficiaries to routinely visit field offices.
Recommendation: Continue to work with the Department of Homeland Security (DHS) to verify
the identities of ANP beneficiaries at the border. To ensure consistency, we believe SSA should
consider developing model language for field offices to use when establishing agreements with
DHS. Once implemented, field office personnel should monitor the identity verification process
to ensure that DHS personnel are complying with SSA policies and procedures.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA agreed that its Biometric Identity Proofing Workgroup should continue
to work with DHS to explore DHS’ biometric technology options to develop pilot projects to help
SSA identify the best approaches to servicing ANP beneficiaries. In addition, Wwhere SSA has
informal partnerships with DHS at the local level, the Agency will develop formal interagency
agreements that document both agencies‘ roles and responsibilities, including any funding
requirements. SSA will also establish a process to monitor DHS compliance with the provisions
of the interagency agreements.
OFFICE OF DISABILITY ADJUDICATION AND REVIEW HEARING REQUESTS DISMISSALS
(A-07-10-20171, 12/14/10)
Results of Review: We found that there were areas where improvements could be made for
dismissing hearing requests.
• For untimely hearing requests, our review disclosed cases where dismissals were not (1)
appropriate, (2) supported by the Office of Disability Adjudication and Review (ODAR) requests
for claimants’ explanations for untimely filing, (3) supported by an Administrative Law Judge
(ALJ) rationale, or (4) processed timely.
• For abandonment dismissals, we found cases where the dismissals were issued without the
necessary attempts to contact claimants documented in the case folders.
• For withdrawal dismissals, we found one case where the claimant’s case folder did not
contain evidence the claimant or the claimant’s representative requested the hearing request
be withdrawn.
In addition, our analysis of dismissal rates identified wide variances among ODAR's regions,
hearing offices, and ALJs.
Recommendation: Determine whether factors are present that explain variances in dismissal
rates among ODAR’s regions, hearing offices, and ALJs.

  April 1, 2012 - September 30, 2012                                                             69
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA is looking into such factors as part of a study the Agency initiated about
hearing level dispositions, including dismissals, albeit at a national level. In October 2010, the
Office of Quality Performance (OQP) initiated a study of ALJ dispositions, including dismissals. The
OQP sample size reviewed these dispositions at the national level, as opposed to determining
factors at the hearing office or ALJ level. The OQP study was published December 1, 2011.
In addition, SSA is collecting structured data regarding each case the Appeals Council (AC)
reviews, whether the action taken is a denial of the request for review, a grant review action, or a
dismissal. This data, which includes the hearing office that issued the dismissal, the reason for the
dismissal, and, where appropriate, the reason for an AC remand of the dismissal, may ultimately
include a sample size that SSA could share, and which may be sufficient for a statistically valid
future effort, to study the issue of variances noted by OIG's report. As SSA indicated, however,
during the course of this audit, and as discussed in the OQP report, many factors may result in
variance rates. These factors, outside of the ALJ’s control, may include: the number of claims
filed; the number of informal remands granted by the State Agency; and, workload transfers
between regions. Demographics and economic factors also affect the number and type of
claims filed, which ultimately can affect dismissal rates. SSA also stated that ALJs were provided
additional training regarding dismissals.”
DISABILITY IMPAIRMENTS ON CASES MOST FREQUENTLY DENIED BY DISABILITY DETERMINATION
SERVICES AND SUBSEQUENTLY ALLOWED BY ADMINISTRATIVE LAW JUDGES (A-07-09-19083,
8/20/2010)
Results of Review: We identified the four impairments that were most often denied by DDSs in
Calendar Years 2004 through 2006, appealed to the hearing level, and subsequently allowed.
These impairments were Disorders of Back; Osteoarthrosis and Allied Disorders; Diabetes Mellitus;
and Disorders of Muscle, Ligament, and Fascia. Our analysis of cases with these four impairments
disclosed:
•	 Claimant age impacted disability determinations.
•	 Determinations of claimants’ ability to work resulted in differences at the DDS and hearing
   levels.
•	 Claimant representation was more prevalent in cases allowed at the hearing level than in
   cases decided at the DDS level.
•	 Cases were allowed at the hearing level based on a different impairment than that on which
   the DDS made its determination.
•	 States had both DDS denial rates and hearing level allowance rates above the
   national averages.
•	 ODAR regions, hearing offices, and ALJs had wide variations in allowance rates.
Recommendation: SSA should consider analyzing variances between the hearing offices
and administrative law judges with high and low allowance rates for the four impairments we
analyzed to determine whether factors are present that support the variances
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA does not track allowance or denial rates based on specific impairments.
If the information becomes available, OAO will consult with the Office of the Chief Administrative
Law Judge about performing a focused review on the hearing offices, and/or adjudicators with
the highest and lowest allowance rates for the impairments identified. The Office of Appellate
Operations explored the feasibility of creating a report by the end of FY 2012 and is currently
working on further development of such a report. SSA also stated that ALJs were provided
additional training regarding the identified impairements.
FOLLOW-UP OF PENDING WORKERS’ COMPENSATION (A-08-09-19167, 7/12/2010)



70                                                                April 1, 2012 - September 30, 2012
Results of Review: SSA had not taken corrective actions to address recommendations
in our September 2005 report. Specifically, SSA had not (1) followed through
with steps to reduce its backlog of Title II disability cases having pending Workers‘
Compensation (WC) claims; (2) developed and implemented an automated process
to ensure it systematically and routinely follows up on new pending WC cases; or
(3) explored systems enhancements that would detect situations in which WC is not applicable
to prevent personnel from retrieving and analyzing cases that no longer require development.
As a result, the volume of cases with WC claims pending for 2 or more years increased from
227,615 in January 2005 to 268,825 in November 2009, an 18-percent increase over the past 4
years. In addition, we estimated SSA had overpaid Title II beneficiaries between $44 and $58
million because of unreported WC payments since our June 2003 report.
Recommendation: SSA should explore systems enhancements that would detect situations in
which WC is not applicable to prevent personnel from retrieving and analyzing cases that no
longer require development.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA worked to establish an agreement with a private organization that
supports insurance companies with information on WC. The Agency entered into negotiations
with the company to develop a proof of concept test project, worked out the agreement,
and set up a test run of data. However, just prior to the test run, the company backed out.
Other avenues were explored, but businesses are reluctant to outlay resources without some
return, and SSA has not been in a position to offer enticing quid pro quo opportunities. SSA
also pursued changes to the law that would require organizations to provide this information
to SSA, but nothing has been passed.
Given these circumstances, SSA cannot accommodate this recommendation. Without access
to State and private WC data, SSA has no way of detecting situations where WC is not applicable.
Because of this, the Agency has no way of preventing personnel from retrieving and analyzing
cases that no longer require development.



Significant Non -Monetary Recommendations From Prior Semiannual
Report to Congress for Which Recent Corrective Action Has Been Made
None to report




  April 1, 2012 - September 30, 2012                                                         71
APPENDIX H: Office of the Inspector General Peer Reviews

Office of Audit
•	 Our Office of Audit is required to undergo a peer review every three years, in accordance
   with generally accepted government auditing standards.
•	 The final System Review Report related to our last peer review, conducted by the Department
   of Veterans Affairs, was issued in August 2012. We received a rating of pass, which means
   that the review team concluded that the system of quality control for the audit organization
   had been suitably designed and complied with to provide us with reasonable assurance of
   performing and reporting in conformity with applicable professional standards in all material
   respects. The Department of Veterans Affairs OIG identified no deficiencies that affected
   the nature of the report. Further, there were no findings or recommendations as a result of
   this peer review.
•	 During FY 2010, we conducted a peer review of the Department of Energy OIG, Office of
   Audit Services. We issued our report on March 5, 2010 and made no recommendations as
   a result of this peer review.
•	 There are no outstanding recommendations from prior audit peer reviews completed by us
   or from prior reviews of our organization.




Office of Investigations

•	 Our Office of Investigations is required to undergo a peer review every three years to ensure
   general and qualitative standards comply with the requirements of the Quality Standards
   for Investigations adopted by the CIGIE. The peer review also ascertains whether adequate
   internal safeguards and management procedures exist to ensure that the law enforcement
   powers conferred by the 2002 amendments to the Inspector General Act are properly
   exercised pursuant to Section 6(e) of the Inspector General Act (as amended) and the
   United States Attorney General Guidelines for Offices of Inspector General with Statutory
   Law Enforcement Authority.

•	 During this fiscal year, the Office of Investigations neither underwent nor conducted a peer
   review.

•	 There are no outstanding recommendations from prior investigative peer reviews completed
     by us or from prior reviews of our organization.




72                                                             April 1, 2012 - September 30, 2012
APPENDIX I: Review of Legislation and Regulations
Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the SSA OIG
to review existing and proposed legislation and regulations relating to SSA’s programs and
operations; and make recommendations concerning their impact on those programs or on
the prevention of fraud and abuse. We accomplish this in several ways. First, many of our
audits and other reports evaluate SSA’s compliance with existing laws and regulations. When
appropriate, we recommend issuing relevant regulations or seeking appropriate legislative
authority; and we provide a status of those recommendations in our Semiannual Report to
Congress. Finally, we describe in our annual Audit Work Plan planned reviews that will address
issues related to laws and regulations.

With regard to proposed legislation and regulations, we provide comments on pending or
proposed legislation to SSA’s Office of Legislation and Congressional Affairs, which includes
those comments in its agency response to OMB. In addition, we participate on an SSA working
group that reviews legislative proposals throughout the year. This working group provides
feedback on proposals submitted from all SSA components. Finally, the Inspector General is an
active member of the CIGIE Legislation Committee. In this role, we provide input to responses
prepared by the Committee to congressional staff on the impact of proposed legislation, and
we meet with staff as needed to discuss legislative issues.

During this reporting period, we reviewed several legislative proposals to ensure that the
proposals adequately addressed the potential for fraud and abuse in SSA’s programs and
operations. In this session of Congress, H.R. 3475, Keeping IDs Safe Act of 2011 was introduced.
This legislation was designed to protect SSA’s information related to deceased individuals.
On May 8, 2012, the Inspector General testified at a hearing on Identity Theft and Tax Fraud,
regarding how our investigations have shown that individuals can use available death data to
obtain SSNs to commit fraud. H.R. 3475 is designed to address this concern. We have provided
technical input to congressional staff on the proposed language, with suggested modifications
as appropriate. Specifically, we suggested language relating to the prosecution of individuals
who commit violations of the proposed legislation, along with appropriate criminal and civil
penalties.

Throughout the Federal Government, improper payments are a major concern. On July 25,
2012, the Inspector General testified at a hearing on the Use of Technology to Improve the
Administration of SSI’s Financial Eligibility Requirements. He testified that the prolonged process
to secure computer matching agreements with other Federal agencies pursuant to the
Computer Matching and Privacy Protection Act (CMPPA) often delays or derails time-sensitive
audit and investigative projects. This process hampers our ability to prevent fraud and reduce
improper payments. We support a CIGIE legislative proposal to exempt all Federal OIGs from
complying with the provisions of the CMPPA for projects relating to fraud, waste, and abuse;
and we have met with various congressional staff to provide input on this issue.




  April 1, 2012 - September 30, 2012                                                            73
Glossary of Acronyms
AC        Appellate Counsel
ALJ       Administrative Law Judge
the Act   Social Security Act
ANP       Alien Nonpayment Provision
AQS       Agency Query System
CDI       Cooperative Disability Investigations
CDR       Continuing Disability Reviews
CEO       Chief Executive Officer
CMP       Civil Monetary Penalty
DMF       Death Master File
DHS       Departments of Homeland Security
d/b/a     doing business as
DI        Disability Insurance
DOJ       Department of Justice
ERP       Economic Recovery Payment
FECA      Federal Employees' Compensation Act
FEQ       Foreign Enforcement Questionnaire
FPS       Federal Protective Service
FY        Fiscal Year
GSA       General Services Administration
HIT       Health Information Technology
IO        Immediate Office
IT        Information Technology
LA        Los Angeles
NCC       National Computer Center
OA        Office of Audit
OAO       Office of Appellate Operations
OASDI     Old-Aged and Survivors Disability Insurance
OCIG      Office of the Counsel to the Inspector General
ODAR      Office of Disability Adjudication and Review
OER       Office of External Relations
OI        Office of Investigations
OIG       Office of the Inspector General
OPM       Office of Personnel Managment
OQP       Office of Quality Performance
OTRM      Office of Technology and Resource Management
PC        Processing Center
PII       Personally Identifiable Information



74                                                       April 1, 2012 - September 30, 2012
Glossary of Acronyms (Continued)

Recovery Act     American Recovery and Reinvestment Act of 2009
RIB              Retirement Insurance Benefits
SeBS             Strategic e-Business Solution
SSA              Social Security Administration
SSI              Supplemental Security Income
SSN              Social Security Number
TAS              Time Allocation System
USMS             United States Marshals Service
WC               Workers' Compensation




 April 1, 2012 - September 30, 2012                               75
                                                                                              How to Report Fraud

                                                                     The SSA OIG Fraud Hotline offers a means for you to provide
                                                                     information on suspected fraud, waste, and abuse. If you know of
                                                                     current or potentially illegal or improper activities involving SSA
                        Mission Statement                            programs or personnel, we encourage you to contact the SSA OIG
By conducting independent and objective audits, evaluations, and     Fraud Hotline.
investigations, we inspire public confidence in the integrity and
security of SSA’s programs and operations and protect them against
fraud, waste, and abuse. We provide timely, useful, and reliable     Call	 ....................		1-800-269-0271
information and advice to Administration officials, Congress, and    Write ...................	     Social Security Administration
the public.                                                          	      	         	         	   Office of the Inspector General
                                                                     				Attention: SSA Fraud Hotline
                          Vision and Values                          				P.O. Box 17768
We strive for continual improvement in SSA’s programs, operations,   				Baltimore, MD 21235
and management by proactively seeking new ways to prevent            Fax ........................ 	 410-597-0118
and deter fraud, waste, and abuse. We commit to integrity and
excellence by supporting an environment that provides a valuable     Online .................	 http://oig.ssa.gov
public service while encouraging employee development and
retention and fostering diversity and innovation.                                  To obtain additional copies of this report,
                                                                                           please visit our website at
                                                                                               http://oig.ssa.gov

                                                                                                  SSA Pub. No. 85-007
Follow Us |
      http://oig.ssa.gov




       SSA Pub. No. 85-007
                              Semiannual Report to Congress
                             April 1, 2012 - September 30, 2012
